<html>
<title> - [H.A.S.C. No. 115-26] Naval Strike Fighters - Issues and Concerns</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 115-26]

               NAVAL STRIKE FIGHTERS--ISSUES AND CONCERNS

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 28, 2017


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-092                      WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
                                    
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        NIKI TSONGAS, Massachusetts
PAUL COOK, California, Vice Chair    JAMES R. LANGEVIN, Rhode Island
SAM GRAVES, Missouri                 JIM COOPER, Tennessee
MARTHA McSALLY, Arizona              MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
TRENT KELLY, Mississippi             JACKY ROSEN, Nevada
MATT GAETZ, Florida                  SALUD O. CARBAJAL, California
DON BACON, Nebraska                  ANTHONY G. BROWN, Maryland
JIM BANKS, Indiana                   TOM O'HALLERAN, Arizona
WALTER B. JONES, North Carolina      THOMAS R. SUOZZI, New York
ROB BISHOP, Utah                     (Vacancy)
ROBERT J. WITTMAN, Virginia
MO BROOKS, Alabama
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     3
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Davis, LtGen Jon M., USMC, Deputy Commandant for Aviation, U.S. 
  Marine Corps...................................................     5
Miller, RADM DeWolfe ``Chip'' III, USN, Director, Air Warfare, 
  U.S. Navy......................................................     6
Moran, RADM Michael T., USN, Program Executive Officer, Tactical 
  Aircraft, U.S. Navy............................................     7

                                APPENDIX

Prepared Statements:

    Davis, LtGen Jon M., joint with RADM DeWolfe ``Chip'' Miller 
      III and RADM Michael T. Moran..............................    42
    Turner, Hon. Michael R.......................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Brown....................................................    71

Questions Submitted by Members Post Hearing:

    Mr. Gaetz....................................................    83
    Mr. Langevin.................................................    81
    Ms. Tsongas..................................................    80
    Mr. Turner...................................................    75
               NAVAL STRIKE FIGHTERS--ISSUES AND CONCERNS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                           Washington, DC, Tuesday, March 28, 2017.
    The subcommittee met, pursuant to call, at 3:54 p.m., in 
room 2212, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. The hearing will come to order. The 
subcommittee meets today to receive testimony on the current 
readiness challenges facing strike fighter fleets for the 
Department of the Navy.
    I would like to welcome our distinguished panel of 
witnesses: Lieutenant General Jon M. Davis, Deputy Commandant 
of the Marine Corps for Aviation; Rear Admiral DeWolfe ``Chip'' 
Miller, Director of the Air Warfare Division for the U.S. Navy; 
and Rear Admiral Michael T. Moran, Program Executive Officer 
for Tactical Aircraft.
    I would like to thank you all for your service and 
appreciate your testimony today.
    We have several important issues to cover today. Before I 
begin, I want to briefly highlight three areas of committee 
concern: One, overall strike fighter readiness; two, the Navy's 
current strike fighter shortfall; and, three, the issue of 
increased physiological episodes [PEs] in the F-18 fleet.
    Last year, this subcommittee held a hearing similar to this 
one to conduct oversight on the capability and capacity 
challenges in the Navy's strike fighter fleets. During that 
hearing, the witnesses noted that, quote, ``aviation readiness 
is in a precarious position that extends well beyond the strike 
fighter force structure. It is particularly acute in the United 
States Marine Corps. Marines are flying on average 58 percent 
of the required flight time necessary to be ready for the 
Nation's call.''
    The witnesses went on to explain that this situation 
resulted from reduced capacity, increased operational demand 
and usage, under-resourcing sustainment and spare parts, and F-
18 depot production falling short of the required output.
    Last summer, I led a congressional delegation to Marine 
Corps Air Station Miramar, where I met with pilots and 
maintainers. And I heard firsthand their concerns regarding a 
lack of spare parts availability and not getting enough flight 
training time due to insufficient aircraft being available.
    Just last month, this full committee held a hearing on the 
state of the military at which Admiral Moran, the Vice Chief of 
Naval Operations, verified that well more than half of the Navy 
and Marine Corps F/A-18 aircraft were out of service. We 
learned that 62 percent of F/A-18s cannot fly today. The 
current crisis in military aviation readiness appears to be 
only getting worse.
    So we expect our witnesses today to help us better 
understand what can be done to reverse this damaging trend in 
Navy and Marine Corps aviation readiness. In hearings 2 years 
ago, for the fiscal year 2016 [FY16] budget request, Admiral 
Greenert, then Chief of Naval Operations, described a 
requirement to procure an additional 3 squadrons of F/A-18 Es 
and Fs, or about 36 aircraft, to improve capacity and address a 
growing shortfall in naval strike fighter inventory.
    However, as a result of increasing demand and operational 
use, combined with continuing resolutions [CRs] and budget 
constraints imposed by Congress, we understand that shortfall 
has now grown to over 100 aircraft.
    For fiscal year 2017, to help address both the readiness 
and the strike fighter shortfalls the committee added 12 F/A-
18E/F aircraft, 4 F-35C and 2 F-35B aircraft. The House-passed 
Defense Appropriations Act for fiscal year 2017 reflects those 
increases.
    The Department of Defense amended budget request for fiscal 
year 2017 also includes an additional 24 F/A-18 E and Fs, and 
this subcommittee plans to work to ensure that request is fully 
funded. We expect our witnesses today to provide us with 
additional information as to what mitigating actions and 
investment we need to now make in order to reverse this harmful 
trend of a shrinking strike fighter fleet.
    Since 2009, the Department of the Navy has noticed a steady 
year-over-year rise in hazard reports, known as HAZREPs, 
regarding physiological episodes in the Navy's F/A-18 and EA-
18G fleets. In fiscal year 2011, the Navy reported 15 
physiological episodes in the fleet of F/A-18 A-D aircraft. In 
fiscal year 2016, 38 episodes were reported. In the first 
quarter of this fiscal year, there have already been 13 
episodes.
    I am concerned about this growing trend, one that has 
significant effect on readiness and one that needs to be fixed. 
According to the Navy, physiological episodes occur when a 
pilot experiences a loss in performance related to insufficient 
oxygen, depressurization, or other factors present during 
flight.
    Last year, we were informed that the Navy had organized a 
physiological episode team to investigate and determine the 
causes of these physiological episodes. And we are very aware 
of how that affects the confidence of our pilots and their 
ability to perform, because it is not just these events 
occurring, it is also the anxiety of these events occurring in 
succession.
    In response and as a result of the subcommittee hearing, 
the National Defense Authorization Act [NDAA] required the Navy 
to establish an independent review team to evaluate the Navy's 
plan to solve this problem. We look forward to receiving an 
update on these efforts from our witnesses today and request 
your professional opinion on what do we, as Members of 
Congress, need to do to help with this process.
    In closing, as I have said at previous hearings, there is a 
military readiness crisis. Continuing down this path of budget-
driven defense strategies rather than capacity-driven defense 
strategies, places too great a burden on our men and women in 
uniform.
    We need to close out fiscal year 2017. We need to address 
the additional funding requirements we were unable to cover in 
the National Defense Authorization Act for 2017. And finally, 
we need to work with the administration to develop a top-line 
budget request for fiscal year 2018 that is as close as 
possible to the $640 billion top-line figure identified by 
Chairman Thornberry in his views and estimates letter to the 
House Budget Committee.
    Before we begin, I would like to turn to my good friend and 
colleague, and thank my ranking member, Massachusetts Member 
Ms. Niki Tsongas, and ask her for her comments. Thank you.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 39.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Tsongas. Thank you, Mr. Chairman, and good afternoon to 
all. And thank you to our witnesses here today.
    As you are well aware, today's hearing on issues and 
concerns facing the Navy and Marine Corps strike fighter 
community comes at a time when the entire naval aviation 
enterprise is under tremendous strain from several directions.
    The first challenge is funding, as the chairman stated so 
well. I agree that sequester-level funding has constrained our 
ability to make the thoughtful investments in these types of 
important capabilities. A second challenge centers on 
continuing problems with the life support systems for F-18 
Hornet and Super Hornet aircraft, the aircraft that make up 
almost all of the Navy and Marine Corps fighter fleets; 
specifically, problems with decompression incidents in older F-
18s, and possible oxygen system contamination in newer F-18s 
continue to plague the fleet.
    As Chairman Turner mentioned, this subcommittee had a 
hearing just over a year ago where these same issues were 
discussed in some detail. And I thank Lieutenant General Davis 
and Rear Admiral Moran for appearing before us again today to 
provide an update.
    Since that time, the Navy has continued to aggressively 
pursue equipment fixes, improved diagnostic equipment, provide 
additional aircrew training, and focus significant leadership 
attention to this issue. Importantly, I think the Navy has 
developed a clearer understanding of which aircraft are beset 
by each of these physiological events.
    However, while some progress has been made, the overall 
rate of incidents for 2016 were worse than they were in 2015. 
For the first few months of 2017, some parts of the fleet have 
seen improvement, while other parts have plateaued or gotten 
worse. So the situation is mixed.
    While it has not garnered as much recent attention as the 
overall state of F-18 readiness in the fleet, I believe we must 
address this issue because it directly affects the lives of the 
brave men and women operating these aircraft. With this in 
mind, before we proceed, I would like to read a portion of a 
letter sent to our committee by a family member of an F-18 
pilot. While it only provides one person's perspective on the 
problem, I think it tells a story in a way all of us can 
appreciate.
    Quote, and I will continue to read until we come to the end 
of it, and then unquote: ``My brother is a pilot and department 
head in an F-18 squadron. In the last year, they have had at 
least 20 incidents of the aircraft's environmental control 
system malfunctioning, leading to pilots developing 
decompression sickness and resulting in several incidents of 
hospitalizations and trips to a decompression chamber, or dive 
chamber.''
    ``My brother alone has had three decompression incidents in 
the last 3 months. After his most recent incident, his 
decompression sickness was left undiagnosed for 4 days. Before 
finally receiving treatment, he was so mentally impaired that 
he could not perform basic arithmetic and spent 6 hours in a 
decompression chamber.''
    ``In another instance, a squadron pilot has persistently 
failed neurological exams, despite three rounds of treatment in 
the decompression chamber and multiple MRIs [magnetic resonance 
imagings]. Hornet pilots I have spoken with confidentially 
predict that a fatality will result soon if the situation is 
not addressed.''
    ``Naval aviators volunteer for a high-risk profession. 
However, the dangers inherent in flying military missions are 
vastly different than the risk of harm that accrues from 
piloting an aircraft with systems that are operating well 
beyond their life expectancy and frequently failing in 
unpredictable ways.''
    ``The key here is that these airplanes are failing in ways 
engineers didn't predict, and thus eliminate the aircrews' 
ability to safely troubleshoot a system failure in flight. 
Funding and attention needs to be diverted to immediately solve 
this issue, as was done when problems with the oxygen system 
developed with the U.S. Air Force's F-22,'' unquote.
    I think that letter lays out the problem as well as any 
facts and figures I could cite. The incidents taking place and 
the possible causes are admittedly complex, but the lack of 
overall progress, despite the best efforts of all involved, is 
of great concern. I look forward today to getting into the 
details of developments in this area, what is being done, and 
options for the future.
    And with that, I yield back and look forward to hearing 
from today's witnesses.
    Mr. Turner. Thank you, Ms. Tsongas. Before we proceed, I 
would like to ask unanimous consent that non-subcommittee 
members be allowed to participate in today's hearing after all 
subcommittee members have had an opportunity to ask. And before 
I ask the committee, I should disclose to them that it is 
actually Mr. Larsen, so they can take that into consideration. 
Is there any objection? I hear no objection----
    Mr. Cook. Reserving the right to object.
    [Laughter.]
    Mr. Turner. Excellent.
    Mr. Cook. No, it is okay.
    Mr. Turner. So there is no objection, even though it is Mr. 
Larsen. Without objection, Mr. Larsen will be recognized at the 
appropriate time.
    With that, we will turn to General Davis.

 STATEMENT OF LTGEN JON M. DAVIS, USMC, DEPUTY COMMANDANT FOR 
                  AVIATION, U.S. MARINE CORPS

    General Davis. For time today, you have got my statement 
for the record. Bottom line, the United States Marine Corps 
remains the Nation's force in readiness. We are challenged with 
our TACAIR [tactical aviation] readiness. I will tell you that 
we are right now deployed in a 1:2 deployment-to-dwell ratio, 
which is a very high state of deployment-to-dwell. And we are 
doing it with a very small structure.
    You know, the United States Marine Corps is designed to 
[be] small in size, high in readiness, and about 20 squadrons 
of TACAIR. Right now, we have got 19; one of our Reserve 
squadrons is cadre'd [non-operational]. So in those 19 
squadrons, we are very, very busy, very forward deployed.
    I will tell you that we are flying some of the oldest 
aircraft in the Nation's inventory. Average age our F-18s and 
Harriers are in the 22- to 24-year range, and those Harriers 
were remanufactured from day attack to radar in the early 
1990s. So they are even older than that on the inside; trusty, 
tried, and true airplane.
    So old airplanes doing their level best. On the F-18 
inventory, today I can muster F-18s, Harriers, and F-35s. Of 
the about 326 aircraft I should have on my flight line, I could 
get airborne in about 146. Alright? And that is--we are missing 
some parts. Every type/model/series is a little bit different.
    I will tell you, most of that risk right now is in legacy 
F-18. The legacy F-18, I have got 11 squadrons of those 
airplanes. And they are struggling in their readiness. The 
Harrier, we had a readiness review; that airplane is doing 
well. Our F-35s are doing exceedingly well. They are in Korea 
right now, VMFA-121, the first forward-deployed fifth-
generation strike fighter out and basically flying missions out 
there for General Brooks in Korea, and every day--I track those 
guys every day, 7 to 8 airplanes up out of the 10 that they own 
out there. So that is what we are looking for. We don't realize 
that with our F-18. We are doing better in our Harrier.
    So as a small force, small in size, high in readiness, we 
need a higher state of readiness out there. Number one for us 
is to recapitalize. That old fleet, we are only 13 percent 
through our TACAIR recapitalization in the Marine Corps. We 
have just started TACAIR recapitalization. So that is the F-35 
program for us. And bottom line, we need to continue on with 
that.
    The second thing we need to do to basically help our 
readiness--I think that Admiral Moran and team would say the 
same thing--is the sustainment accounts. Readiness recovery, 
which this committee and this--our Congress has been very 
supportive of the United States Marine Corps readiness recovery 
effort, we are making progress. But it is--I would say it is 
fragile progress. It is steady, one day at a time readiness 
recovery. And a big part of that is the spare parts accounts.
    The number one impact for lack of readiness for legacy 
platforms they fly, across the spectrum of the Marine Corps, is 
lack of spare parts, whether that is F-18s, Harriers, or our 
helicopters or tiltrotors.
    The United States Marine Corps will be ready. We will be 
ready to go with what we can offer up. But I would say that as 
the Nation's force in readiness, we could do a better job for 
our young Marines that are out there, giving them the proper 
training, the proper amount of flight time, and in order to 
make them ready to go do what our Nation requires them to do.
    They will go forward. They will do the best they can. They 
will do a good job. But I think we owe it to them to give them 
more resources, more flight time, more training, more parts in 
order to make that go. And I think the recapitalization, it is 
time for the Marine Corps to do that, and I think that is the 
number one thing I could ask from this committee is to keep 
that recapitalization on track to get us in those fifth-
generation strike fighters as soon as we can.
    [The joint prepared statement of General Davis, Admiral 
Miller, and Admiral Moran can be found in the Appendix on page 
42.]
    Mr. Turner. Admiral Miller.

 STATEMENT OF RADM DEWOLFE ``CHIP'' MILLER III, USN, DIRECTOR, 
                     AIR WARFARE, U.S. NAVY

    Admiral Miller. Chairman Turner, Ranking Member Tsongas, 
distinguished members of the subcommittee, thanks for the 
opportunity to come here and talk about Navy strike fighter 
issues. I will also cut my opening remarks short.
    As General Davis said, over the past 16 years our Navy 
strike fighters of F-18 Super Hornets have been flying combat 
missions in the Mediterranean, Arabian Sea, as well as 
providing much-needed presence in strategic locations such as 
the South China Sea. To state that the operational demand for 
carrier-based strike fighters has been high would be an 
understatement. And this demand is expected to remain high, 
especially given the aggressive growth from expanding naval 
competitors like Russia and China.
    So our current force, as you mentioned in your opening 
remarks, sir, is that we are facing a readiness challenge. And 
there are three main drivers from my perspective on what those 
causes are: One is that persistent high operational demand for 
naval forces; second is funding reductions; and the third is 
the consistent uncertainty about when those reduced budgets 
will be approved.
    As the Vice Chief of Naval Operations testified recently, 
we continue to put our first team on the field, but we lack 
serious depth on the bench. And that impact to our bench will 
be further exacerbated if we don't receive resolution on the 
FY17 request for appropriations and the recently provided 
request for additional appropriations. If we do not receive 
both, the aircraft shortages in our air wings that are 
preparing to deploy will grow, and we will have to continue to 
prioritize our readiness funding to ensure that the next group 
in the rotation is ready.
    Although the bench issue has been more severe in our strike 
fighter fleet replacement squadrons and weapons schools, 
without adequate funding in FY17, this, too, will become worse. 
So the Navy does require your support on the department's 
readiness recovery efforts. We have the opportunity to correct 
this, but it must start in FY17.
    Recovery begins by improving wholeness in our existing 
strike fighter force, by ensuring we have the parts on the 
shelf, and ensuring we fully fund readiness enabler, depot, and 
flying hour accounts. We also need to procure new strike 
fighters to address the current shortfall in modernization of 
our fleet. This includes the procurement of both F-18s and F-
35Cs.
    As I testified before this committee earlier a month or so 
ago, the carrier air wing of the future needs both fourth- and 
fifth-gen [generation] capability and capacity. By 
strengthening the bedrock of our strike fighter force, filling 
the gaps which currently exist, and working towards a balanced 
fourth- and fifth-generation capability mix, we will field an 
unbeatable team, while ensuring our bench has the depth 
required to join the forward-deployed team.
    Our readiness issues did not happen overnight. And we 
aren't going to get out of them overnight. It is going to take 
time and solid funding throughout the FYDP [Future Years 
Defense Program] to start making that recovery a reality.
    Thank you very much for the opportunity to be here. And I 
look forward to your questions.
    Mr. Turner. Admiral Moran.

  STATEMENT OF RADM MICHAEL T. MORAN, USN, PROGRAM EXECUTIVE 
             OFFICER, TACTICAL AIRCRAFT, U.S. NAVY

    Admiral Moran. Good afternoon. Mr. Chairman, Ranking Member 
Tsongas, thanks for the opportunity this afternoon to testify. 
As a Program Executive Officer for aircraft--Tactical Aircraft 
programs, I am currently focused on three priorities to improve 
the capacity and capability of carrier aviation to meet our 
Nation's requirements.
    One is to effectively execute the programs of record 
prioritized by Navy leadership and resourced by Congress. 
Number two is to improve flight line readiness of our carrier 
wing platforms, sensors, and weapons. And third is to improve 
speed to the fleet, which our programs deliver--require 
solutions required to mitigate Navy and joint force capability 
gaps.
    Just a brief moment on the third part. I do want to thank 
Congress for the language in both the fiscal year 2016 and 2017 
NDAA, which provides new prototype and experimentation pathways 
to enable us to go faster. I look forward to the opportunity to 
work with you to accelerate the fielding of advanced technology 
to enable us to maintain our competitive advantage over any 
adversary. I think that is a very helpful opportunity for us.
    But executing the programs of record will always be my 
first priority. It is my obligation to not only ensure the 
timely delivery of critical capability to the fleet, but to do 
so as cost-effectively as possible on behalf of the taxpayer.
    Therefore, I spend the majority of my time supporting these 
efforts, working with our resource sponsors, the fleet, and our 
very capable industry partners to ensure that procurements, 
life extension, and modernization programs are executed as 
required.
    In that regard, I look forward to your support to avoiding 
the detrimental impacts of a yearlong continuing resolution. 
Several new start programs critical to delivering the next-
generation of integrated capabilities will be delayed.
    Additionally, several current programs, some of which 
support joint urgent operational need programs necessary to 
keep our aircrews safe and effective on upcoming deployments, 
will be delayed, as well. And others which provide critical 
sustainment efforts required to improve our flight line 
availability also will be impacted by a resolution.
    If there is a yearlong continuing resolution, it is our 
hope that anomalies will be considered for those programs most 
critical to the Navy and the Marine Corps.
    In terms of my second priority, readiness, we have 
established focused readiness teams with all stakeholders 
across the Navy and the Marine Corps, which are led by our 
naval aviation three-star leadership team to find opportunities 
to establish and prioritize investments.
    As you have already heard, the operational demand for our 
Navy will continue to be challenged by the fleet's ability to 
meet its readiness requirements. Constrained funding levels for 
our primary readiness accounts, largely due to fiscal pressures 
imposed by the Budget Control Act, coupled with uncertainty 
around when budgets will be approved, drive instability to our 
planning, our workforce, and our industry partners.
    The aviation support account, for example, has been funded 
below requirements for the last 8 years, which has forced 
programs to prioritize only safety-critical work, and projects 
such as reliability-centered maintenance, technical 
publications, structured repair manuals, things that improve 
the readiness on our flight lines have not been done or 
supported. Investments in these accounts, which the Navy is 
focused on today, as well as the long-term funding stability 
is, therefore, essential.
    Finally, there is no more important safety-critical work 
ongoing in naval aviation than resolving the physiological 
episodes we continue to see across our fleet. This is naval 
aviation's number one safety issue. Despite the resource-
constrained environment, we are taking a resource-unconstrained 
approach to this problem. It is our number one priority.
    We are working diligently to determine all root causes of 
PEs. We continue to aggressively prioritize resources and 
engineering efforts and remain focused on mitigating the PE 
risk to a level that will allow us to continue safe operations.
    Thank you very much for the opportunity to testify this 
afternoon.
    Mr. Turner. Thank you, Admiral.
    General Davis, we understand that the most serious 
readiness concerns are found in your aviation units as you were 
describing. And we understand that you have temporarily reduced 
the number of aircraft assigned to your fighter attack 
squadrons because you do not believe the available aircraft 
meet your requirements; obviously, a very drastic step as a 
result of constrained resources.
    General Davis, Admiral Moran was telling us some of the 
effects of the Budget Control Act and of continuing 
resolutions. We all know that continuing resolutions and the 
Budget Control Act, those sequestration cuts or effects, are 
harming the military. Could you please give us some discussion 
on how it is affecting your readiness and how those cuts are 
affecting you? Because as we go and make the case to the rest 
of Congress as to why there should not be a yearlong CR and why 
we need to repeal the Budget Control Act, you and your 
counterparts are the best spokespersons to aid us in that.
    And then, secondly, if you could describe what additional 
resources the Marine Corps aviation modernization needs in the 
near term. Does the fiscal year 2017 budget amendment help to 
address some of these challenges in readiness and 
modernization? And did you get everything you've asked for in 
regards to aircraft in the amended budget request? General 
Davis.
    General Davis. Thank you, sir. I think you might have met 
some of the best spokesmen out there when you went out to 
Miramar and talked to our young Marines. They are always the 
best spokesmen, whether it is an aviator or a rifleman that 
gets the support from those Marine aviators.
    I will tell you, I think I am--the impacts of not getting a 
budget for me and the Marine Corps, in late July or early 
August, we will start shutting down squadrons that aren't next 
to deploy. And what that looks like--so we talked about 20 
TACAIR squadrons; 6 F-18 squadrons and 4 Harrier squadrons will 
basically cease flying operations. Okay, so half of our fleet.
    And if you look at the F-18 squadrons we have, last year--
actually, last month, the average F-18 pilot in the Marine 
Corps flew 9.1 hours a month. Okay, they are supposed to get 16 
hours a month. The Navy's ``tactical hard deck'' is 11. Last 
year, we were about 9 hours a month.
    So we are eking out in our readiness recovery inch by 
inch--those Marines are working their rear ends off out in the 
hangar decks to make good readiness out of the older airplanes 
that we have until the F-35 does get there, sir.
    But stopping flying when they are not flying now--I mean, 
that is--I think that is a debilitating gut shot to the 
Nation's force in readiness. That is the last thing I want to 
see, and it is the--I think we need to do everything in our 
power to avoid that.
    This is like young football players getting snaps. That 
would be a couple months of--they will not be getting the snap 
until a budget does get approved or the next year's budget. And 
bottom line is, I think we need to do better than that. Not 
only can we do better than that, we need to do better for these 
Marines that are doing so much to keep us safe.
    So I think it would actually kind of--also it would lower 
the ramps. So we have actually--this readiness recovery model 
we briefed you on, sir, and your team, we are executing that 
readiness recovery model. And bottom line, we have added last 
year--the last year, we added another 44 aircraft to our flight 
line that weren't there before. This year we project to do 33.
    If we don't get the money, if we have to stop flying, that 
is going to start to taper off again. And the Nation's force in 
readiness will not hit its readiness recovery targets until 
much later. And I don't want to talk about what date that is, 
because that is information for our adversaries.
    I also say, too, that as far as our budget and what we 
asked for, we asked for some additional F-35s out there in the 
budget. That is what I need to get. I need more metal on the 
flight lines. We asked for an additional three. They didn't 
make it through the budget process coming out.
    But we could use any kind of help. I think we talked about 
the last time I testified, sir. That is still the same. An 
optimized ramp for F-35 does the level best to help the Marine 
Corps recapitalize its old metal.
    The F-18s I am flying today, they've got a 55 percent break 
rate. So that means they are up in the morning, but they go off 
in the sortie--that first sortie of the day, they come back, 
and they are down. So that is--usually we get two or three 
sorties out of those airplanes back in the day. We can't do 
that right now.
    It is just these are tried-and-true war dogs. They are 
great airplanes, but they are tired. So getting the new 
airplanes, that is--the ramp for over the FYDP 19, 23, 23, 23, 
then 30, that allows me to get out of F-18, trying to take that 
to 2030, push that left at 2025, 2026. If that was--if there is 
one thing I could ask on the TACAIR side, for the United States 
Marine Corps, besides funding our enabler accounts would be 
those new airplanes. That would help us the most, sir. Thank 
you.
    Mr. Turner. General, how do you retain pilots when they are 
not getting to fly?
    General Davis. Well, I have gone to visit every single unit 
in the Marine Corps, with the exception of the WESTPAC [Western 
Pacific] units, Congressman. And I have talked to them about 
that. And I appeal to them that the Nation is going to need the 
Marine Corps. We are that force when the--in our Nation's 
darkest day, right, that we are going to go forward, with 
whatever we have we are going forward. I choose to have a fully 
up force that is fully trained, but we are going to go forward, 
just like General Neller has said.
    So I appeal to their patriotism. I said, you know, bottom 
line, the leadership and, frankly, this body here has been 
working hard to get us the resources to do readiness recovery, 
to fight for additional airplanes, to get that optimized ramp. 
They know that.
    So I do. I appeal to their better nature, that they won't 
want to be left out when the balloon goes up the next time. And 
I talk back in history, because I have been at this for 37 
years, and the folks that did get out to go do something 
different missed it. And they--all Marines like to be in the 
fight and they want to go be in the next wave to go forward.
    So I appeal to that, but it is hard. It is hard. These are 
probably the very best Marines we have ever had in uniform, 
officer, enlisted. They are very professional people, very 
serious. And they want to be on that team that gets the snaps 
and is trained. They are not asking for a lot, but what they 
want--what they are demanding from me is spare parts for the 
airplanes, and airplanes that they can fix that will stay up 
once they do fix them.
    So they are good Marines. They are the best Marines we have 
ever had that I have been associated with. And we are keeping 
enough of them, but I am worried about a number of those 
Marines breaking faith with me from what I can't deliver for 
them on the flight line.
    Mr. Turner. Thank you, General. Admiral Miller, as I 
mentioned in my opening statement, 2 years ago, Admiral 
Greenert, then Chief of Navy Operations, indicated that the 
Navy required about 36 additional aircraft to address the 
Navy's strike fighter shortfall. Committee staff has learned 
that the current shortfall requirement is now over 100 
aircraft.
    Admiral Miller, please explain, what has changed over the 
last 2 or 3 years that has exacerbated the Navy's strike 
fighter shortfall? And what immediate actions need to be taken 
to mitigate it? Also, what additional resources are required in 
the Future Year Defense Programs for procurement of F/A-18E/Fs 
and F-35Cs to address the strike fighter shortfall?
    Admiral Miller. Yes, sir. Appreciate the question. And if I 
have time at the end, I would love to add on to that last 
question with our junior officers and the retention piece, if 
we have that time.
    With respect to the shortfall, sir, it is hard to put an 
exact number to it. What is the number? What Admiral Greenert 
estimated----
    Mr. Turner. Well, let's start with, is it over 100?
    Admiral Miller. Right now, I am standing by the--we are at 
36--we consumed--shortfall was all due to consumption. We are 
consuming airplanes quicker than we are replacing airplanes. 
And we replace airplanes by either, A, extending their life or, 
B, buying more airplanes.
    And so with about 35 to 39 aircraft at the current rate 
that we are flying our strike fighters is what we are consuming 
a year. And we are not replacing it at that rate. So we have 
been on that pace for the last several years.
    When you hear quotes like, ``is it 100?'' That is when you 
start looking at, we realize that we are flying our strike 
fighter fleet at a more rapid pace and they are driving to 
their 6,000-hour end of service life sooner. So starting in the 
early 2020s, we are going to have to start inducting Super 
Hornets into the depots to extend their service life. And so 
that--we are expecting about 60 to 70 airplanes possibly 
pulling off.
    So do you have to buy new airplanes to replace and get in 
front of that? If that is a solution set, then, yes, you could 
argue that 100 is the number. What I will tell you is we can 
manage a lot of that. What we need to do is buy airplanes. We 
appreciate this committee's support in the FY17 request for 24 
additional F/A-18s. And I can tell you that that is a great 
first step.
    You ask about the future, you know, I expect that we need 
to be buying airplanes, F-18s and F-35s, throughout the FYDP. 
Initially, as I testified to earlier, I believe that buying 
heavier in the F-18s because of the shortfall we currently have 
and because of the impending service life extension that we are 
going to have in the early 2020s is where we need to go, 
continue the ramp that we have in PRES BUD [President's Budget] 
2017 for F-35s that for the Navy sustains our IOC [initial 
operating capability] and our squadron transition to get at 
least six squadrons by FY24.
    And as the FYDP continues to march down towards the early 
2020s, that is when all of a sudden we now start transitioning 
into going and buying F-35s in a greater capacity. So hopefully 
that answers the question, sir. I do think it is a consumption 
issue.
    Mr. Turner. Well, numbers do matter, as you know. In the 
end, we have to pencil things together. And we can't do it on 
just representations of more or less. We have to do it on 
numbers. That is why you got a number question.
    Admiral Miller. Yes, sir.
    Mr. Turner. But you would like to talk about the issue of 
pilots not getting to fly and the effect on them?
    Admiral Miller. Yes, sir, you asked about retention. I 
think when it comes to the yearlong continuing resolution, like 
General Davis talked about, we are going to have to shut down 
squadrons, as well, and shutting down air wings. And so when 
you couple that with a readiness issue, i.e., squadrons that, 
you know, pilot--young JOs [junior officers] that are in the 
maintenance or basic phase, and they are just not flying, you 
know, the hours that they were expecting to fly, and all of a 
sudden now they are on a squadron that is potentially getting 
shut down.
    You couple that with airlines that are going to be hiring 
about 50,000 pilots over the next 10 years, and so we are 
seeing--already starting to see the leading indicators of some 
retention problems. And that leading indicator is primarily the 
bonus take rate. And we are already this year at the O-4 ranks 
about 9 percent less than where we were last year.
    So we are concerned about this. I just wanted to express 
that concern. I do think that, as General Davis talked about, 
if the junior officers are flying, they have up airplanes, 
their satisfaction of quality of life is going to be much 
higher, and they are going to stay Navy and Marine Corps.
    Thank you, sir.
    Mr. Turner. Ms. Tsongas,
    Ms. Tsongas. Thank you. I would like to return to my 
opening comments and follow up on the issue of the 
physiological events and talk about the status of the F-18's 
challenges in the area of aircrew life support right now, these 
issues that exist right now, specifically the crew cabin 
pressure issues in older F-18s and possible oxygen system 
contamination in newer F-18s.
    The information that you all provided to the committee for 
this hearing showed an increase in the rate of physiological 
events in all three elements of the F-18 fleet throughout 
fiscal year 2016 as compared to 2015. This included a 90 
percent increase in the rate for F-18 A-D models, a much 
smaller 11 percent increase for F-18E and F models, but a more 
than doubling of the rate for the EA-18G model aircraft.
    Admiral Miller, is that correct?
    Admiral Miller. Yes, ma'am.
    Ms. Tsongas. The same information provided to the committee 
covering the first 3 months of fiscal year 2017 showed a 
further 66 percent increase for the oldest F-18s, no increase 
in the rate for newer F-18s, and a 30 percent decrease for EA-
18Gs. Are these figures correct, Admiral Miller?
    Admiral Miller. Yes, ma'am.
    Ms. Tsongas. And for the oldest F-18s, the data show a more 
than tripling of the rate of incidents from the first quarter 
of 2015 through the first quarter of 2017. I know that increase 
has gotten the attention of the Navy and a lot is being done. 
And I certainly appreciate that.
    But the committee has been informed that the Navy has done 
some selective grounding of problem aircraft recently, both to 
reduce risks and to conduct engineering studies. So, first, I 
would just like to get a better sense of the scope of grounded 
aircraft across the fleet.
    Admiral Miller, can you give me a sense of how many classic 
or legacy F-18s are grounded across the fleet for this reason?
    Admiral Miller. Ma'am, I think I would have to defer to 
Admiral Moran, who probably has more information on the 
technical data. What I can tell you is confirm the numbers that 
you have, because that is what we have been presented.
    I will tell you, from a naval aviation leadership 
perspective, which includes all three of us at the table here, 
as Admiral Moran in his opening remarks said, is that aircrew 
safety is always our number one priority. And with regard to 
safety, this physiological episode issue is our number one 
safety issue.
    Since we have testified before this committee last year, 
efforts have expanded considerably, mostly with aircrew 
training and with data collection, so--as well as maintenance 
procedures. So with that, if okay with you, I would defer to 
Admiral Moran, who I think can give you a lot more information 
on the technical issues of how we are proceeding.
    Ms. Tsongas. Admiral Moran.
    Admiral Moran. Yes, ma'am. I appreciate the question. You 
know, we have a protocol, the Navy does, whenever there is a PE 
event on any aircraft----
    Mr. Turner. Sir, could you move your microphone up?
    Admiral Moran. Yes, sir, could you hear me?
    Mr. Turner. It is a directional object. If you would make 
it straight. Thank you.
    Admiral Moran. Can you hear me now, sir?
    Mr. Turner. Yes.
    Admiral Moran. There we go. Sorry about that. The protocol 
we have in the Navy today is anytime an aircraft experiences a 
PE event, it is taken out of service. And so we have protocols 
we have developed over the last year and a half that go ahead 
and review every ECS [environmental control system] component 
on that airplane. We check each one out. We send that and the 
life support systems back for an engineering investigation to 
verify if we can find what was a causal factor for that PE 
event on the airplane.
    So the CO [commanding officer] of each squadron, Navy or 
Marine Corps, always has that ability to take that aircraft and 
ground it and take it out of service. But we have protocols we 
developed to bring it back into service. And once we go through 
that and verify, if we can, the causal factor and replace those 
ECS components to get it back into a flyable state.
    We have had a couple instances in airplanes that were bad 
performers that were repeat no matter what the aircrew or the 
maintainers did on the airplane. We would get it flying, we 
would experience some kind of PE event. So we would take that--
and the fleet really was great for us. We transferred that to 
Pax River, Maryland, and we took it to our test squadron, and 
we instrumented that airplane. And we still have it.
    And so we instrumented the whole ECS system to try to 
figure out where the problems were on some of these components 
with an ECS system. So we are still going through that process. 
We have learned a ton on some of the valves and switches in 
that system that we just previously have not replaced on--you 
know, kind of replaced them on an as-failed nature. So if the 
fleet reported them as failed, we'd replace them.
    And so we have determined that, hey, we are not going to do 
that anymore. From what we are seeing, we are going to do what 
we call force replacement. So let's get back on a scheduled 
time period to replace these parts and components. And the 
naval supply system deal have been fantastic. We have been 
going after the supply base, going to find the parts and 
components, so we can do this force reset. We call it the ECS 
reset, because we just didn't do that on some of these 
airplanes, and so now kind of getting to that piece. So 
hopefully that answers your question, ma'am.
    Ms. Tsongas. Well, is there a tipping point for any 
particular airplane in which you just decide to ground it 
permanently because despite your best efforts you can't bring 
it back? There are those that you find the problem and you 
think you fix it, but those airplanes in which you think you 
fixed it but you haven't. So what is the tipping point for a 
particular aircraft or, in general, for the fleet, in terms of 
just broad numbers?
    Admiral Moran. Yes, ma'am. So we do have what we call a 
strike board that Admiral Miller kind of is responsible for, 
working with the TYCOMs [type commands] out in the fleet on 
balancing that. And so all of that information, whether it is a 
PE or there is a structural challenge with an airplane that is 
just too costly to go ahead and repair, we go ahead and make 
that determination to strike it from the inventory and not do 
anything more with that.
    The only airplane--we have had two now--that we have really 
had a hard time fixing in terms of the PE, that no matter what 
we did, we couldn't do it, the one of them is in Pax River now. 
The other one we are considering taking down. We are going to 
do what we call really a teardown of the complete ECS system on 
that airplane. And so I think the fleet is in the position now, 
has taken that one out of service, too, because that will give 
us insight--because there is just some components that are 
really hard to get that are embedded in the airframe structure 
that we want to get a better look at.
    So this is all part of the ECS reset for the legacy 
Hornets. And I will tell you, lessons learned, we are going 
after that really hard on the Super Hornet fleet as well, so we 
have two airplanes at Boeing right now as we speak that are 
part of the SLAP [service life assessment program] effort for 
the Super Hornet. And they are a learning aircraft, so we can 
understand a material condition.
    We just put Boeing on contract. Hey, as we tear that 
aircraft apart, both of those aircraft, let's look at the ECS 
system from beginning to end to understand it, so when we go 
ahead and take that into the sustainment mods [modifications] 
in the mid--you know, early 2020s, we are going after the ECS 
system from the get-go on that airplane.
    Ms. Tsongas. Well, I appreciate these efforts. But I asked 
these questions so we have a sense of where things go from 
here, because as all three of you know so well, the majority of 
both the Navy and the Air Force, its strike fighter fleet, is 
made up of both older and newer F-18s, which you are 
addressing.
    And that was not the case with the Air Force when it 
grounded the F-22 fleet. Whereas the Air Force could ground its 
F-22 fleet without major, albeit serious, consequences for its 
overall operations, grounding the F-18 fleet would have far-
reaching implications for the majority of naval strike 
missions.
    So I highlight this point to underscore the importance of 
the work being done by the independent review team and the 
physiological episode team and, if we have time, I will follow 
up with questions about that.
    But also just wanted to draw attention again to the 
mitigation efforts you all are investing in to keep your pilots 
safe, whether it is wearing a dive watch so that they know if 
there is a decompression incident, their fleet awareness 
training for hypoxia, decompression chambers to help pilots who 
have experienced the depressurization. I think this tells you 
how very serious this issue is. And it calls for some real 
solutions.
    Mr. Turner. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman. Thank you all for 
being here. So with the last 2 to 3 years, the Navy strike 
fighter shortfall, is it all due to dollars? I mean, would 
dollars have--if you had the dollars, would that have solved 
the shortfall problem? Or is it more than that?
    Admiral Miller. I think we can both chime in on this, sir. 
When I look at readiness, in my mind, I tie readiness to 
dollars. Shortfall, I tie that to consumption, OPTEMPO 
[operational tempo], and the fact that we are flying airplanes 
to their end of service life sooner.
    So in terms of readiness, which is still taking airplanes 
that we own today, that are on the flight line, that aren't 
able to fly, that is 62 percent. It is getting those airplanes 
into flyable status. That absolutely is tied to funding. On the 
shortfall, yes, we mitigate that by buying more airplanes, and 
we need to do that, but that is primarily due to OPTEMPO and 
consumption.
    Mr. LoBiondo. So the readiness problem with spare parts 
that are just not available, we can't--I mean, I apologize for 
my ignorance, but we just can't anticipate what we may need 
based on experience from the same planes and the same problems 
and have parts available ready in a more ready state?
    General Davis. If I could answer that, sir, we have done 
four reviews now, outside reviews looking in at each of our 
type/model/series in the Marine Corps to understand the 
readiness equation. It is not just--it is new airplanes. It is 
spare parts. It is also how we retain and train our enlisted 
maintainers, both Navy and Marine Corps, to get maximum 
readiness out of those platforms.
    I will say that when the budgets got decremented, when we--
you know, kind of a constrained budget environment, everybody 
is trying to survive, they are trying to modernize, because 
they can't--you have got to replace--the old metal is dying 
out. You have got to try to replace that. But also, too, I 
think we underfunded our spares accounts.
    And, frankly, that is what we are dealing with--you know, 
if we had to go to a continuing resolution, I think we are--in 
the Department of the Navy, we are funded at about 67 percent 
of our spares requirements in 2017. Okay, some of that 
additional money in 2017 would go to get us up to the max 
executable amount of spare parts certainly for the United 
States Marine Corps at 88 percent, as much money as I could 
spend in 2017, to go get those spare parts on the line.
    So if you look across the Marine Corps, for all of my type/
model/series, for the older airplanes, and even some of the 
newer ones we haven't bought the parts for have been--accounts 
been marked, it is the number one readiness degrader outside of 
having old airplanes on the flight line, old, unreliable 
airplanes on the flight line.
    So spare parts to me is--I think we could do a better job 
of that. We are doing a better job. I can't talk about next 
year and what we plan to do next year, but I think you will see 
a very different profile from the United States Marine Corps, 
as far as what we are doing for our enabler accounts. That is 
the program-related logistics, engineering, and spare parts.
    Mr. LoBiondo. So, Admiral, are we in a setting that you can 
talk about what this means on a deployed carrier with----
    Admiral Miller. Yes, sir. What I can tell you is our--we 
always keep our deployed forces absolutely equipped and ready 
to address whatever issue they may have. When we talk--and I 
talked earlier on my opening remarks of the--what the Vice 
Chief of Naval Operations said about the bench. That is where 
you are seeing the impact of the degraded readiness.
    We pull from the bench--meaning the guys that just returned 
from deployment, those squadrons that would be used to surge or 
that are the two air wings from now to deploy, we are pulling 
from them to make sure that those that are deployed absolutely 
have what they need. So George H.W. Bush, Carl Vinson deployed 
now, those air wings and those strike groups are fully manned, 
fully trained, and equipped to handle the issues.
    What we are seeing is, again, that bench is where we 
measure the health of our readiness. And so as General Davis 
talked about, the enabler accounts, just to give you a sense 
over the last 5 to 6 years, those enabler accounts are those 
program-related engineering, logistics, the tech-pub [technical 
publication] manuals, spare parts. We have been underfunding 
those accounts at the 50 percent or 60 percent for several 
years, and that is what has taken its toll.
    So what the request for additional appropriations does in 
the 2017 request, it really is focused on readiness. And it 
funds those accounts to the 90 to 100 percent. So as General 
Davis said, we are going to need--we didn't get here overnight. 
We are going to need to sustain this as we move forward. But 
your help with what we have just put in this budget will help 
out greatly, sir.
    Mr. LoBiondo. Thank you very much.
    Mr. Turner. Okay, the order of asking questions for those 
members who were here before the gavel will be Mr. Carbajal, 
Mr. Cook, Mr. Knight, Mr. Kelly, Mr. Wittman, and then we will 
go to those who were after the gavel. Mr. Carbajal.
    Mr. Carbajal. Thank you, Chairman Turner and Ranking Member 
Tsongas, and thank you to all our witnesses that here are 
today. The committee was informed that there was a possible 
breathing air contamination incident involving an Australian 
Air Force F-18 aircraft that is being carefully studied by the 
Navy. In this event, after the pilot in question landed, he was 
reportedly disoriented, slow, struggled to remove items from 
the jet, unsteady on his feet, and had degraded cognitive 
ability that lasted about 30 minutes.
    In addition, ground personnel that later sat in the cockpit 
and breathed air from the aircraft system exhibited some of 
those same symptoms. The Navy's briefing to the committee 
concluded the Navy suspects that lubricants, engine fluids, and 
other materials may be getting ingested into the oxygen 
generation system, which depends on bleed air from the 
aircraft's engines, and converted into more dangerous materials 
through a chemical process that is not yet fully understood.
    Can all of you provide an update on the status of the 
investigation of this particular incident? And also, what has 
been learned so far? Is contamination stemming from the F-18 
engines ingesting toxic materials a possible cause of the Super 
Hornet's sustained physiological event rate?
    Admiral Moran. Good afternoon, sir. I will take that. So we 
have a very strong partnership with the Royal Australian Air 
Force. And we are part of that investigation of that incident. 
So, yeah, we did learn some things from that incident where we 
did see some ingestion from what really was the biggest 
contaminant was what we determined to be grease lubricant on a 
nose wheel well of the aircraft.
    And so I can tell you one outcome already that we have done 
is we have gone back and put out a bulletin to the fleet on how 
to service the nose gear grease on all of our airplanes. So we 
have got to control it and manage it. It just can't be put on 
in gross amounts. It has got to be very much limited to what is 
needed to grease the wheel.
    So as we looked at that, that was one of the particulates 
in the analysis that kind of came through as a potential cause. 
It wasn't in the numbers that we believe would have an effect 
on a human. So we are still learning the human effects of 
things that get ingested. But that is the one thing we learned.
    So also part of that process--so there is some fluid for 
the radar cooling, and so there is a discharge port that 
basically could release some contaminants into the engine, 
because the engines ingest air all around the airplane. So we 
are looking really, really hard at everything that is possible 
that the engine could ingest in the outside air that could get 
through into and contaminate the air that we are breathing.
    You know, last time I was here, we told you we put new 
molecular sieve beds in our airplanes. They are starting to do 
that. And I think the number I gave you was 219 a year ago. We 
are up to 658, so 80 percent of our Hornet fleet now have the 
new molecular sieve beds with carbon monoxide scrubbers. So we 
never had those before. So trying to go after all those 
particulates that could get in through the engine intakes, into 
the bleed air system. So we continue to learn every day. We put 
absorbent tubes--I told you last time I was here we were 
looking at that possibility.
    So what they go--and we put it on the vest of the pilots, 
and we have collected probably over 1,500 events now where the 
absorbent tubes just collects all the air that is in the 
cockpit. And we measure that to see what contaminants are in 
there.
    Two things have come. One is we haven't had absorbent tube 
in an airplane when we had a PE event. You know, so we have 
been looking for that opportunity. So out of 1,200 events, we 
just haven't had one. But with the new sieve beds that are in, 
we see a decrease in the particulates in the air that is being 
breathed. So not that it is getting rid of everything, but we 
are seeing lower levels, so that is a positive sign. And one of 
the reasons, ma'am, I think we are seeing a little bit less 
increase on the Super Hornet side, which is more contamination 
rather than the pressurization problems we are seeing in the 
legacy. So there is some positive piece there.
    Mr. Carbajal. Thank you.
    General Davis. Sir, you asked for all of us. We operate the 
F-18 legacy Hornet A-D, about 11 squadrons of those, plus a 
training squadron. We also have F-35s and AV-8s that run on an 
OBOGS [On-Board Oxygen Generation Systems] system and Prowlers 
that run liquid oxygen. We are not having any problems with the 
liquid oxygen Prowlers or the Harriers or the F-35s.
    On the F-18s, we track this as a team all the time, so 
Congressman Tsongas, we watch it like a hawk. So anytime the 
Navy has an issue, I review that report in detail and talk with 
Admiral Grosklags and Admiral Shoemaker. We aren't seeing right 
now the number of problems. We haven't seen any of the hypoxia 
events in our legacy Hornets. And we are tracking--we are not 
seeing a debilitating problem with any kind of pressurization 
problem, but we watch it very closely.
    I want to let you know that you didn't ask me, but we are 
tracking that very closely. And so if we do have that, we share 
that up and down the team. But we haven't seen big problems 
inside. And maybe it is because we only have two squadrons that 
are TACAIR integrated. We don't know why right now in the Navy 
why we are not having the problems. But to date, we have not 
had big problems with OBOGS or pressurizations in our legacy F-
18s.
    Mr. Carbajal. Thank you. I yield back.
    Mr. Turner. Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman. Admiral Miller, I 
believe it was you that mentioned about this rehab that is 
going to take place at Boeing. Was it the SLAP program? Did I 
understand the--or, I am sorry, Admiral Moran. Whereabouts is 
that physically going to happen? I mean, which Boeing facility?
    Admiral Moran. That will be in Boeing, St. Louis, sir.
    Mr. Cook. Okay. So to kind of get an eye, if I wanted to go 
there to have it--you know, I am very visceral, I have to have 
it--I am not very bright like you guys--I have to see it in 
progress and everything like that--I could go to St. Louis and 
get an explanation on that, because I am very, very interested 
in that on how we can correct the problem if possible. So----
    Admiral Moran. Absolutely, sir. Love to have you out there 
and show you the two airplanes that are in the teardown mode 
today.
    Mr. Cook. Okay, I want to switch gears a little bit. And I 
want to talk about the--General, the EA-6s. And when I was at 
Cherry Point last year, they are still on the flight line. I 
think you--what, got four or five of them there. No? Am I 
wrong?
    General Davis. Three squadrons, sir.
    Mr. Cook. And the--you elected not to go with the Growler. 
And we are waiting for the F-35. Is that wait time going to be 
a problem? Are the--it seems as though the EA-6s are still 
flying. I am not saying it is older than me, but it is getting 
close. And--no, it has got a long ways to go yet. But can you 
comment on that?
    I am worried about all these other maintenance problems and 
everything else, and that was not part of the brief tonight. 
But I wondered if you can make some comments about the EA-6s, 
and whether you have given any thought to going with the 
Growler if some of these problems continue.
    General Davis. Well, sir, our Prowlers are still serving 
proudly. They are out there forward deployed right now. We will 
sundown the Prowler in 2019. But we are very confident in the 
capabilities that we get resident to the F-35 that we are going 
to cover down a lot of our electronic warfare requirements, to 
include the growth in F-35 and also, too, you know, I had 24 
Prowlers to cover the entire Marine Corps.
    A lot of times if you were a Marine on the ground, you 
didn't see that Prowler support. If you were in a MEU [Marine 
expeditionary unit], you never saw electronic warfare support 
like that. So the strategy of the Marine Corps has employed is, 
have a high-end airplane like the F-35 that can do strike and 
do air-to-air, can do electronic warfare.
    And also, too, a thing called Intrepid Tiger, which is 
something we developed in the U.S. Government out there in your 
neck of the woods, sir, out there at--at Point Mugu. It is an 
open architecture pod that allows us right now to do comms 
[communications] jamming. And the next one, Intrepid Tiger 
Block 2X, built by U.S. Government workers, will have a RF 
[radio frequency] jamming capability, so going after radar 
signals, as well.
    It is carried right now by our UH-1 Yankees. It is carried 
by our Harriers, carried by our F-18s. It is going to be 
carried by our Zulus, C-130s, and V-22s. So instead of having a 
single point solution to the electronic warfare strategy, we 
will have a multiple point solution to electronic warfare 
strategy, so that those airplanes have that self-protect 
capability they need and the jamming capability.
    And those--the Marine on the ground can actually reach up 
and basically manipulate the jammers onboard those platforms to 
go do jamming missions for the guy on the ground. So we think 
that is the strategy that makes the most sense for the Marine 
Corps and it will distribute electronic warfare capability to 
include our ground sensors, because we are always working with 
our guys on the ground to give us the best answer.
    Mr. Cook. Thank you. The only comment I wanted to make 
which we are saying here, I think a number of us are very 
worried about the budget. The CR, the sequester, the whole 
works, I almost wish in this hearing we had defense 
appropriations with us together. Maybe we have the same angst. 
This is going to be tough, but in many ways this is a more 
receptive audience than the rest of Congress.
    And I don't think they realize how critical it is, 
particularly with the tempo of ops and burnout and parts and 
everything like that. And if we are going to talk national 
defense, you got to be serious about the stuff that goes into 
it. So I appreciate your testimony.
    General Davis. Yes, sir. If I could, dep-to-dwell 
[deployment-to-dwell] of 1:2 where the Marine Corps TACAIR is 
right now is technically surge. And we are doing that with 
about half the inventory we need to go do that. So we are 
getting the job done. We are getting out the door. But it is 
not a pretty picture. We are getting it done, sir. And we are 
getting it done on the backs of our Marines and their families, 
get it out the door.
    And so Congresswoman Tsongas, the number one thing that I 
worry about is, are they getting enough flight time? You know, 
are they getting the looks at the ball they need to be when the 
bad thing happens, they know what to do? I believe we are 
flying safe airplanes. We are just not flying them enough.
    So it is not only recapitalization. And also, too, for all 
of you, I think after 37 years of doing this, I think that when 
we buy a new airplane or we buy any airplane, you, our elected 
leaders, ought to hold us to account, the senior uniformed 
leadership, to buy the spare parts that go along with that 
airplane. That is not okay to get the new bird and not get the 
spare parts.
    So to me, they are equally important, right, and then you 
get your maximum readiness. I am not going to come to you 
complaining that I need more money and more stuff. So to me, 
the spare parts, from what I have seen, in my 2\1/2\ years as 
the Deputy Commandant for Aviation, or 2\3/4\ years, is that 
spare parts are just as important as the new gear.
    Mr. Turner. Mr. Knight.
    Mr. Knight. Thank you, Mr. Chairman. I will just have a 
couple brief questions, but, Admiral Moran, I am just going to 
button this up. Pax River is working on this. This is an issue 
that can be corrected. Do you think that this is an issue that 
goes through the 2018 program, through the legacy fighters, or 
is this something that might be incident per incident? Or is it 
something that they are going to have to correct at Pax River 
and do an overhaul?
    Admiral Moran. From the PE perspective?
    Mr. Knight. Yes, sir.
    Admiral Moran. Yes, sir. The things we are doing now is the 
ECS reset I think--from the aircraft that we took out of the 
fleet and we instrumented, and we are seeing some failed 
components on the air flow. We recognize we have got to go 
back. And what we have done now is starting to look at all of 
the components that make up the ECS system. We have gone back 
to the manufacturer or the depot who does either the overhaul 
or the acceptance test maintenance.
    So a review on every overhaul procedure for each of those 
components to validate it works. And we found some that weren't 
working, so we had to fix those. We updated all the acceptance 
test procedures for the components to make sure we are 
validating their performance before we get them back in the 
field.
    So we are in that process now of really making our way 
through each of the components on the ECS system, taking them 
back field. And I will tell you, I think we are going to know a 
lot more--as Admiral Miller said, we have got a lot of data now 
over this last year. Now as we start our first aircraft really 
what we are calling the ECS reset here later this year, we will 
really be able to start seeing if that is making a difference 
on some of those problem airplanes.
    Because some airplanes are worse than others. There are 
some airplanes out there, as General Davis had just--that 
aren't having any problems whatsoever. I mean, and then there 
are some that are. We have got to get down to it. So it is 
really going after the components that make up the ECS system; 
that is what we are doing.
    Mr. Knight. Well, and I think that is something that this 
committee takes very seriously. We are flying the wings off 
some airplanes. And we fly fighters for 30, 40, 50 years. And 
when we are trying to extend and continue to extend out to that 
8,000-hour period, we are going to have problems.
    So my last kind of basic question, General Davis, we are 
seeing F-35s in the field now. And it is a new technology. This 
is fifth-gen [generation] now. And even though we have stealth 
capable aircraft that we have had for now 30 years, the 
maintainers are an issue for me.
    And we have got the young people out there that are working 
on now fifth-generation aircraft. And so tell me how that is 
going with our young Marines out in the field, seeing new 
aircraft, new technologies, and working with different things 
outside of just turning a wrench.
    General Davis. Thank you so much for that question. I will 
tell you that probably the best advertisement for that, sir, is 
to go visit and talk to the young--I mean, really inspiring. So 
we are trying to do--we are not trying, we are going to do F-35 
right in the United States Marine Corps. We are standing up 
right. So really fantastic maintainers, making sure we got the 
right density of people with qualifications.
    VMFA-121, you know, that is a ``fight tonight'' squadron. 
It is out there poised right up there, looking at--General 
Brooks is using those guys, counting on those guys to be ready. 
And they are providing the readiness that they need. That is 
the sign of a solid maintenance department.
    You know, we have had very good success and good 
productivity, and it is a solid effort. And so it starts at 
VMFAT-501 in Beaufort. It has got VMFA-211 out there in Yuma, 
and also 121. So I would say that is going well. I do think it 
is a challenge to make sure we grow the force the right way, so 
earlier today I was talking to the other Marine three- and 
four-star generals on exactly this topic. It is not just F-35, 
but it is all of it, about how we train our enlisted maintainer 
force.
    So we stole a playbook out of the United States Air Force's 
playbook. Right now, we are running our first advanced aircraft 
maintenance officers course out there in Yuma, Arizona, in 
conjunction with the WTI [Weapons and Tactics Instructor] 
class; stole almost everything--not--borrowed from the United 
States Air Force in Nellis, but training our guys to do things 
the right way.
    Also, too, making sure we have study--when a readiness 
recovery--in our independent readiness reviews, we studied each 
and every type/model/series to make sure that we had the right 
density of maintainers with the right qualifications. We were 
off. We were off in the numbers we need.
    We had it right in F-35, but in a lot of the other type/
model/series, we didn't have enough of the qualifications, and 
we weren't measuring the military occupational specialties of 
those young Marines. We are doing that now. And that is going 
to have an outsized impact on our ability to retain the right 
folks with quals [qualifications], because about 10 percent of 
our maintainers graduate to the next step to be a collateral 
duty inspector, which is the first step of a guy who can--or a 
gal who can do the job out there with a wrench. And retaining 
them and coveting them and giving them the right training. So 
we are doing F-35. I want to spread that to the rest of the 
fleet, sir.
    Mr. Knight. Thank you very much. I yield back, Mr. Chair.
    Mr. Turner. Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman. And thank all you 
officers for being here today. Lieutenant General Davis, I am 
still kind--I don't understand the spare parts issue. Is it a 
dollars issue? Is it a production issue? Or are the lag time 
for production because we haven't ordered? Or is it a PLL 
[parts load list] or--I call it PLL--a stockage problem that we 
are not stocking the right parts? Where would you put--and it 
may be a combination of those, but where do you put the onus on 
where our shortage of parts are?
    General Davis. I would say first would be that we fund the 
spare parts and that those spare parts accounts stay funded. So 
we have had some challenges with F-35 spare parts early on that 
we were--they get marked. You know, hey, we don't think you can 
spend the money. Those accounts get marked, and then you end up 
with not enough spare parts, so there is one.
    Two, I think is making sure that you have got the right 
density. Some of these parts take 2 or 3 years to build. So if 
you are dealing in 1-year money all the time for spare parts 
funding, that a lot of times doesn't allow you to buy the parts 
you need for some of these airplanes, like the CH-53 Echo, in a 
case in point. About 30 percent non-mission-capable supply. We 
are getting better at that now, but it is--we had to go after 
that in a concerted effort, stealing a page out of the Army's 
book, about how they sustain their CH-47s and H-60s.
    But--and then the other part of that would be reliability, 
holding the manufacturers accountable for producing the parts 
and the quality we need to make sure that they last according 
to design specifications. So I would say it is multifaceted. 
Each type/model/series is a little bit different, but all of 
it--you have to have a holistic strategy for spares just like 
you do a holistic strategy for sustainment for the platform, 
for buying new airplanes, and for how you might take something 
like an F-18 Super Hornet through a service life extension 
program in the course of its life. I think we will do that with 
everything we own, but to me, the spare parts are absolutely a 
critical enabler.
    And I will tell you, the Marines or sailors will get the 
part they need for the airplane, but they will expend three 
times the maintenance effort if it is not on the shelf when 
they go look for it. They are going to go take it off the 
partsman that has got a bureau number on it. Another airplane 
that may be deferred maintenance, whatever, they will take that 
part off--that is one maintenance action. They will take the 
part off the bad airplane, go take a part off another airplane, 
put it on there, so it is three or four maintenance actions for 
the lack of a spare part on the shelf.
    So I think just demand that you hold us accountable for 
doing a good job with that and letting you know when our spare 
parts accounts aren't right-sized.
    Mr. Kelly. Well, I get that, but also you got to hold us 
accountable as Congress, because you kind of know what is going 
to break on equipment after you have exercised it for a while. 
But if you don't have the money, because your PLL--or your 
parts supply, so your dollars are too low to order the things 
that you know you are going to break, then what that does is 
delay maintenance and receiving that part and all those other 
things. Is that not correct, General Davis?
    General Davis. It is, sir. And I think it is all of it. I 
think it is easy to advocate for a new flying machine. It is 
harder to make the case to get a spare part. But those are just 
as important. And----
    Mr. Kelly. Let me ask you all this question. The F/A-18, 
when we send that back to depot level maintenance, it comes out 
and--I guess is it like new when it goes to depot level 
maintenance? Do we get a new extended life of flying time? And 
is there enough space in depot level maintenance that we can 
fix a lot of these and get them back until we get F-35 
replacements? How does that work?
    Admiral Moran. Yes, sir, it really depends on the 
investment we make upfront. And so the way the Navy works right 
now--when we buy an airplane and our service life--we determine 
what the service life needs to be for that airplane, and then 
we build the airplane to that spec [specification]. So for both 
the legacy Hornet and Super Hornet, we designed that airplane 
to last for 6,000 hours.
    And for the Navy, very unique, because we are carrier 
based, we don't want to bring that airplane back into the depot 
at all. So we test that airplane to what I would say our worst, 
highest spectrum, 90 percent, so 90 percent of the airplanes we 
build are going to last their service life without any cracks 
whatsoever, because we don't want to worry about that in the 
carrier environment.
    At 50 percent of the life, we make the determination to do 
what we call a SLAP, a service life assessment program, and 
evaluate, is the aircraft performing as the models predicted? 
And once we get that data back, then we can determine, do we 
need to do things--does the Navy or Marine Corps need to make 
that investment to do the SLEP [service life extension 
program], which is the extension piece you talk of? So you got 
to do that work.
    I will tell you, we didn't do all of that work on the 
legacy Hornets. We didn't. And so we are not truly doing 
extension. We are doing the high flight hour inspections. We 
are repairing and fixing what we can. And the material 
condition past the service life is really what--we uncovered 
things that, you know, you can't predict structurally. So you 
have got to get that right. You have got to make that 
investment in engineering.
    So the most critical thing for the United States Navy 
today, in my opinion, is getting--and as we have done--get the 
engineering right for the Super Hornet, SLAP that we have done, 
and getting the engineering done for the ECP [engineering 
change proposal] kits in the SLEP, so when it goes into the 
depot, we have the material, the parts replacement, and the 
full kit and how to go ahead and repair that airplane so they 
can get it through.
    The legacy today, every airplane is different. We are 
learning. We don't have all that engineering work and all the 
material in place. That is why they are being delayed. That is 
why we have gone to the Boeing company and challenged them, 
let's get the engineering done with the mods [modifications], 
because the concurrency of the overlap of those two is very 
detrimental to predicting outcome of those airplanes.
    Mr. Kelly. Thank you, Mr. Chairman. I yield back.
    Mr. Turner. Thank you. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Gentlemen, thank you 
so much for joining us today. Thank you for all that you are 
doing under some pretty trying circumstances.
    Lieutenant General Davis and Rear Admiral Miller, I wanted 
to ask you specifically about the impact on pilots. You laid 
out what we are doing with service life extensions and 
acquisition of new aircraft, but I want to take a step back, 
because I think the most important element of that is, where 
are we with our pilots? Last summer, Admiral Manazir laid out 
for us the concept in the Navy and Marine Corps of tiered 
readiness. As pilots begin to fly through maintenance cycles, 
pre-deployment cycles, they work up to have that high-end 
capability in their training.
    One of the things he pointed out was the impact on young 
pilots not getting as many flying hours, both in the 
maintenance cycle, but also in those high-end situations with 
multiple aircraft, like they get at Fallon. And then also what 
happens, too, when our pilots then through the years become 
squadron commanders.
    And instead of a squadron commander having about 2,000 
hours of flying time, all of a sudden now they have about 1,500 
hours of flying time. And what happens when then they find 
themselves in this high-end fighter, their members of the 
squadron are going to them as their commanding pilots there, in 
that high-end conflict about that experience, that is so 
critical.
    Give me your perspective about where we are today, because 
that is not ground that we can make up with those leaders. I 
want to ask both of you all to comment on that.
    General Davis. Yes, sir, if I could, two things. I talked 
with Marine three- and four-stars about that very topic today. 
And small distinction. Marine Corps doesn't do tiered 
readiness, sir. You know, we are small, designed to be small, 
and I can't say the number of squadrons that go forward when 
something big happens, but it is a large percentage of our 
stuff. So we have to be--we have to be ready. So where we are 
right now is unacceptable. So we have got to drive through 
that.
    What I say--and I remember what--I go back to what I was 
like as a young officer. And I was a guy who had joined the 
Marine Corps not knowing we had airplanes, so bear with me 
here. But bottom line is, I needed to get a number of looks. 
And so your progression, you get into a squadron, you get 
through your training squadron, your fleet replacement 
squadron, and for me, I started flying AV-8 Harriers. And I 
needed to get--Lieutenant Davis needed about 20 hours a month, 
because I needed that training. I needed that looks at the 
ball.
    It is like an athlete. You are being trained. It is a lot 
of hard work. And bottom line is, I got to be a section leader 
after a while, and then I got to be a division leader, and then 
I have worked on my instructor qualifications, and ended up 
being an instructor in the weapons school, doing an exchange 
for the Brits, and then commanding a weapons school.
    Our young officers right now, because I can't--if an F-18 
squadron, our Harrier squadron, I am doing great in my F-35 
squadrons and doing better in Harrier. Right now, I am very 
worried about F-18, U.S. Marine Corps, legacy F-18, 9.1 hours a 
month. I don't have enough flight time to feed everybody.
    And so what I am finding, I am making about one-half to 
one-third of the flight leads that I used to. So guys now are 
coming back for their second tour as a major, as a division 
lead. And they used to be a patch-wearer. That has an impact 
long-term on that person being a squadron commander and--hey, 
this looks stupid, that is not a good idea, don't go--all those 
safety things that we have now I think I worry about 5 years 
from now where we are, that we don't have the experience base 
to go, that doesn't look right and here's how you fix that. 
That is the debilitating impact of not having enough flight 
hours to generate for our youngsters right now.
    Mr. Wittman. Very good. Admiral Miller.
    Admiral Miller. Yes, sir. Same, same. And nothing really 
has changed since Admiral Manazir described it to you the last 
time. And as we talked about the tiered readiness, we 
absolutely have our deployers ready to go. Where we are seeing 
the impact of the situation that we are in right now with our 
current readiness situation, which really is, you know, having 
the airplanes to fly, the hours for each of these young pilots, 
is found, you know, post deployment as they are in a 
maintenance and basic phase.
    And as I talked about a little bit, we are also starting to 
see leading indicators on the retention side of this, which has 
us a little worried. So part of it is, subsequently through 
tours, the level of experience they will have, I will tell you 
that the impact of a yearlong CR is only going to make this 
worse. We will probably have JOs that are expected to leave 
their first--junior officers--expected to leave their first 
squadron with a--you know, normally a division lead qual, maybe 
not. And so the same point that General Davis just talked 
about.
    So it is going to actually have career-long impacts, as 
well as warfighting impacts as these guys get more senior. So 
really, sir, not much has changed at--you know, there is a 
saying in naval aviation that says, you know, all good things 
come from up airplanes. And this is one of them, sir.
    Mr. Wittman. Very good. Gentlemen, very quickly with the 
time I have remaining, when this happens, obviously, if we face 
a conflict, we have pilots up there in a variety of different 
situations with not as much experience as we would like. Where 
does that lead us as far as risk? And when I talk about risk, 
it is survivability of pilots in those high-stress and high-end 
conflict scenarios. Give me your perspective about how this 
reverberates in that situation.
    General Davis. I will talk about three different tries very 
quickly and then go over to Admiral Miller. Our F-35 pilots, 
the way they are popping out of our training squadron, it is a 
very high-end airplane and they are trained to a high-end 
threat, and they are getting their flight time. So I am healthy 
in F-35 right now, as long as we don't stop flying.
    Harrier, for what we ask that squadron to do, they are 
taking off the ship or our land base and going deep into Iraq 
and Syria and doing strike missions, things we never designed 
the Harrier to do, but it is doing that really well.
    I worry about the F-18 because it requires more--instead of 
a soccer match, it is more of a football match. And every 
player has got to have their assigned position and do their 
assigned rollout in order to make things work.
    I think we will have--we could have--in a higher-end 
threat, we could have a hard time being as successful. We will 
still go fight, because we like to fight, we like to do what we 
got to do, but bottom line, I am not--I think we might have 
less success, we might have more losses. We will go. We will go 
and we will go with--and with great elan. But I think we could 
have some additional losses we weren't anticipating.
    Mr. Wittman. Okay. Admiral Miller.
    Admiral Miller. Yes, sir, a couple things come to mind. 
One, I was a strike group commander in 2014 on George H.W. 
Bush. And I will tell you, the young men and women that are on 
our flight decks, in our squadrons flying those missions are 
the best that I have ever seen.
    Mr. Wittman. Absolutely.
    Admiral Miller. We get them ready. Our standards--when we 
come to you talking about readiness, we are seeing leading 
indicators. We are trying to get in front of what could, you 
know, be a downward trend. We are doing what we need to do to 
make sure that those that go forward are absolutely ready. And 
all it takes is going out there and talking to returning strike 
group commanders and air wing commanders as they come back. 
They are--couldn't be more proud of the performance of the men 
and women that are in our cockpits and doing the missions and 
what we ask of them.
    So I will tell you, I have great confidence in that. Where 
I get concerned, again, we have high standards, right? We are 
number one. And we want to stay number one. And those high 
standards are saying, okay, we are seeing leading indicators, 
specifically with regard to the budget, and as we bring things 
forward and make it whole from our training perspective, from 
our readiness perspective, from the--giving the young men and 
women the tools they need to continue to succeed into the 
future, that is the stuff that we are talking about now.
    So I will tell you I have great confidence in those that 
are serving, and especially on our flight decks today.
    Mr. Turner. Admiral Moran, you will have to give us your 
response in writing. We are well over 2 minutes, and I have 
three more questioners, and we got votes coming. But I 
appreciate it, Mr. Wittman. Mr. Moran, if you would respond in 
writing.
    [The information referred to was not available at the time 
of printing.]
    Mr. Turner. We are going next to Mr. Brown,
    Mr. Brown. Thank you, Mr. Chairman. I had the privilege of 
spending about 25 hours aboard the USS Nimitz this past weekend 
underway in the Pacific during its pre-deployment training. And 
Admiral Miller, just spent--I spent a few minutes in the ready 
room with that TACAIR squadron, and I got a lot of confidence 
in them, as well. The experienced pilots, the new pilots coming 
out.
    I want to go--come back to physiological effects, but turn 
our attention away from the aircraft and on the pilots. I had 
an opportunity to speak with one of the division leaders who 
described to me two incidents. One was actually an over-
pressurization of the cabin, and it blew the canopy, and 
another was the depressurization at altitude. And at least one 
of those events not only had physiological effects, but we also 
need to be thinking about the psychological effects.
    And the concern that was raised was the lack of the 
transportable or the portable repressurization systems. I 
understand they are on some of the deployed fleets. The 
division leader didn't know. When I brought it up to the ship's 
captain, though--I was pleased to hear that when they go blue, 
they will have it.
    So my question is, these portable repressurization systems, 
what is the availability? Why can't we put them on every 
aircraft carrier wherever they are stationed or wherever they 
need to be so that our aviators know that, hey, look, if 
something happens, we have got everything we need to take the 
best care of you?
    Admiral Moran. Sir, I will have to get back on the 
availability, but I think just--you share, you know, the 
reaction and the focus this has--I mean, Admiral Miller and 
Admiral Shoemaker briefed Admiral Davis, our Fleet Forces 
commander, and I think--in a matter of days, if no more than 
that, those systems were on the two deployed aircraft carriers 
that we had access to. So they were quickly deployed, and they 
are out there today, big statement.
    And so we are looking to do that for all other deployed 
carriers when they go. I will have to get back to you on the 
numbers. I don't know if you have that.
    [The information referred to can be found in the Appendix 
on page 71.]
    Admiral Miller. Yes, I don't either. But I will tell you, 
that the priority went to George H.W. Bush and Carl Vinson for 
their deployment. And as Admiral Moran indicated, boy, it was 
quick, because we realized that when an incident does occur, 
the ability to get somebody into a recompression chamber 
absolutely starts taking away the decompression sickness that 
you would have.
    So my indications are--and I will get you the exact dates, 
but I think the mindset is for those that are doing workups 
like Nimitz on the West Coast, others, they are within a 
helicopter's ride of getting to that sort of treatment. But we 
are looking at--again, I said this is resource unconstrained, 
so if that is what we need to do, and I believe there is an 
effort to get it expanded to all our carriers when they are out 
with an air wing embarked, I just have to get that information 
for you.
    Mr. Brown. And if I can just follow up, you know, in my 
experience, and I am sure yours as well, we will do better 
during a deployment when we train-up on whatever it is we need 
to do during that training period. And I have got to imagine 
that a portable repressurization system requires some skill set 
for the crew, the medical crew and the other crew, to use that 
effectively during a deployment. So it may very well make sense 
to have it available during training, even when the ship is 
close to shore, something to think about.
    Mr. Turner. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman. I want to thank all 
three of you for being here. I was fortunate enough to command 
four different flying squadrons, and I think I know the story. 
Old aircraft, lack of parts, not enough maintenance folks on 
the line, being stretched very thin, flying half the hours to a 
third of the hours, people behind on instructor upgrade, 
evaluator upgrade, going to weapons school. It is unacceptable.
    And I think Congress owes you better. The real problem is, 
it puts our Nation at risk. And it puts our sons and daughters 
at risk. So we have got to do better and work hard on it.
    What I wanted to ask our Navy leaders here, I think I 
understand that the plan is to put the mix on the aircraft 
carriers of two F-35 squadrons and two F-18 squadrons. I am 
inclined to think that is probably budget driven and maybe 
production rate driven. If the world was perfect, what would be 
the right mix?
    Admiral Miller. We think we got it right, sir.
    Mr. Bacon. Two and two?
    Admiral Miller. Yes, sir.
    Mr. Bacon. Because it fulfills different niches a little 
better?
    Admiral Miller. It absolutely does. And if you look at the 
wide range of missions that our aircraft carriers and our 
carrier strikes are faced with, we think that it is a perfect 
mix.
    Mr. Bacon. Okay, that is good to know. I presume you agree.
    Admiral Moran. Yes, sir, I agree.
    Mr. Bacon. Okay, thank you. That is all I have, Mr. 
Chairman. I yield back.
    Mr. Turner. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for your testimony. I want to thank you especially 
for your service to the country.
    It was recently discovered that the F-35C pilots were 
experiencing vibration issues during catapult launches under 
certain conditions. As the safety of our service members is of 
great concern to me and I know many of my colleagues, I am 
greatly interested in the resolution of this issue that occurs 
during such a critical phase of flight. Have mitigation efforts 
been identified and validated to your knowledge? And what are 
the expected cost impacts and how has the issue affected the 
planned schedule for the IOC?
    Admiral Miller. Yes, sir. So what you are talking about--
what we are calling Nz oscillations, and it is the--when the F-
35 when we took it out to sea during the recent DT3, 
development test three, at-sea test period, it was the first 
time taking fleet pilots out. And the aircraft, as it goes 
through its catapult stroke, is--it is having a pretty violent 
catapult stroke. So initial oscillations right off when the 
catapult initially fires and then again as it reaches the end 
of its catapult stroke.
    So the answers to your question--a lot of them, we don't 
have the answers yet, because the engineers from NAVAIR [U.S. 
Naval Air Systems Command] and the engineers from Lockheed 
Martin and the joint program office are hard at work at coming 
up with solutions. I will tell you that they recently conducted 
some tests out at Lakehurst, at our test bed site that has our 
catapult--land-based catapult site at Lakehurst, New Jersey. 
And what they were looking at there is, there is a hold-back 
bar that has, if you will, holds the--no kidding, holds the 
airplane back when you put the catapult into tension.
    And so then, as the catapult fires, that hold-back bar 
releases. So what we did in the F-18, this was also happened in 
the early versions of the F-18, we had a similar issue. We 
released some of the pressure that it took to actually--where 
that hold-back bar would release a little sooner. So that was 
the testing that is happening at Lakehurst right now.
    So we are hopeful that that is going to yield positive 
results. I haven't seen the data from that yet. General Bogdan 
may have more as the joint program office [JPO] is the one 
honcho in this. We are clearly watching it. Our hopes then to 
take the airplane back out to sea in this fall, and hopefully 
by then we will have--we will see if that does have an impact, 
and then we will take it out to sea and test it under real, 
live conditions to see if we are successfully through that, 
sir.
    Mr. Langevin. Okay, thank you, Admiral. I know we look 
forward to getting the follow-up on that.
    Admiral Miller. You bet.
    Mr. Langevin. So do you foresee any issues with software, 
delivery and test, weapons integration, or other aspects of 
development that threaten to delay the F-35C IOC currently plan 
for late 2018 or 2019?
    General Davis. Well, it is--the software is the same for 
the B and the C. So I think we are on track. I think probably 
the number one thing--the software running 3I right now, and we 
are flying that in the skies over Korea. And that is working 
very well for us. 3F is the next--we are actually flying that 
and testing it right now. We are getting better and better with 
that every day, so I have a high degree of confidence that 3F 
is going to be--if not on schedule, very close to on schedule.
    I think the number one thing that all of us are concerned 
about is follow-on modernization and making sure that those 
accounts stay funded. In a lot of ways, what this airplane 
brings, it is almost like--remember when we first got the F-18 
and the Harrier, I was around when we got those, but the 
airplanes we fly today are vastly different than the ones we 
got back then. So we have to make sure that we keep the follow-
on modernization going and keep those block increments coming 
in. It brings warfighting capability that our Nation needs for 
that overmatch requirement that the Chairman and the Secretary 
of Defense talked about. Really important we keep that going.
    So I think software is tracking. And I think the follow-on 
modernization is the other part of that that we need to keep on 
track, sir.
    Admiral Miller. The other thing I will add, sir, is our IOC 
for the F-35C is event-driven. So although there is a time 
aspect to it, its completion of system development 
demonstration, the SDD phase, completion of initial operational 
test and evaluation, our first squadron starts its transition 
in fiscal year 2018 and the first deployment isn't until fiscal 
year 2021. So although--I don't want to say we aren't 
concerned. We continue to put pressure and watch this as it 
continues to progress. But right now, we are fairly confident 
that the JPO has given this the attention it deserves.
    Mr. Langevin. Okay, thank you.
    General Davis. And for the Marine Corps, the F-35 IOCs are 
not event-driven.
    Mr. Langevin. Okay, thank you. I have one additional 
question, but my time is expired. So, Chairman, do you want me 
to submit it for the record?
    Mr. Turner. Please. We will get to Mr. Langevin. If you 
want to wait, we can come back to you.
    Mr. Langevin. Okay, fair enough. I yield back.
    Mr. Turner. Mr. Larsen--excuse me, Mr. Larsen we need to 
get to. Great.
    Mr. Larsen. Thank you. And thanks for the indulgence, as 
well, Mr. Chairman, for allowing me to sit in on this. Admiral 
Moran, I have talked about almost every F-18 except the one I 
really care about, the Growler. They are all at Navy Air 
Station Whidbey Island. And this gets to the OBOGS issue.
    And I guess I need some--I guess I need an update, because 
according to your numbers, the OBOG rate, or the PE, rate has 
gone from 90.83 to about 63.69, and Representative Tsongas 
covered that. But that is just through it looks like 1, 2, 3 
months so far. But--so it is lower than last year, but it is 
still higher than the 2014 to 2015 rate, which is three times 
as high as the 2013 to 2014 rate. It is still pretty high.
    And I was told last year in a briefing that as the issue--
as pilots and crew become more aware, we naturally see an 
increase in PE because of reporting, which I certainly 
understand, but still, 63.69 as a rate is still much higher 
than even 2 years ago. So I don't know that--it doesn't seem to 
me that it is just an awareness issue anymore. So what are you 
doing now, with regard to the G [Growler]? Because you have 
talked about Es and Fs and every other letter in the alphabet 
up to G, but not G.
    Admiral Moran. Yes, sir. So I will tell you, after--I will 
tell you, in 2016, we had a couple months that were exceedingly 
high. Back in June of 2016, we had eight events, which is 
almost double the average of events that we had in the couple 
months prior, so----
    Mr. Larsen. Excuse me. The clock is not running, and I want 
to be sure it is--something going on here. I don't want to--
yes. Yes, thanks. Go ahead.
    Admiral Moran. Yes, sir. So we sent a team--the NAVAIR Pax 
[Patuxent River] team, so we sent 12 folks out from Pax River 
to go sit down with the would-be team and really go through 
what they are seeing and experiencing. We also bought--and 
Admiral Miller bought the ``Slam Stick'' [sensor tool]. So we 
really have no way to measure on a flight the pressurization 
changes in the aircraft. There is nothing on it. So these 
sticks, Slam Sticks we call them, we really went out and got 
them pretty quickly and put them on all the aircraft out in 
Whidbey.
    So collecting absorbent tube for contamination and 
pressurization with the Slam Stick to start collecting the 
data. And really went back with the maintainers to go through 
the airplane, how we are maintaining the ECS system, things 
that are unique or changing or different from the F model. So 
we spent almost 2 full weeks out there----
    Mr. Larsen. And can I explore that? Because aren't these 
going to be different than the--the Gs are as new as they can 
be relative to the Es and Fs, and they are going to be a little 
bit different, so how are you addressing that?
    Admiral Moran. So, you know, what we are looking at right 
now is because the ECS system, the draw on the Growler, because 
of all the electronics on the airplane, are really drawing on 
the ECS system a little bit differently. So the one Growler we 
had significant issues with, we are in the process of sending 
that back to Boeing to go take a look at the ECS system to see 
if there is anything we can do.
    So we already changed out a restrictor plate to increase 
the air flow to the avionics. That really helps control the 
pressurization to some degree. So we are looking at those 
things that we need to do differently potentially on the 
Growler than we did on the Super Hornet to control the 
pressurization.
    So what I will tell you is one of those airplanes from 
Whidbey is going to Boeing, and we are going to take a harder 
look at the system.
    Mr. Larsen. Do you have different contamination issues that 
you are looking at on the G regardless of the E and F?
    Admiral Moran. We are collecting data. I have not seen--I 
can't say that we have seen anything new or different in terms 
of contamination between the airplanes, no, sir.
    Mr. Larsen. And when you mentioned that plane going to 
Boeing, is that one of the two planes you discussed with----
    Admiral Moran. Yes, sir.
    Mr. Larsen. Okay, it is. Okay, great. So----
    Admiral Moran. No, it is not SLAP. This is--the one that we 
have in Pax River is the legacy. This one is the Growler that 
is going to Boeing. It is not part of the SLAP, SLEP analysis. 
This is really focused on PEs.
    Mr. Larsen. Okay. Do you have--do you have a working 
hypothesis about the higher rate, then?
    Admiral Moran. I don't. I don't. We are--like I said, it 
kind of--as you said, the numbers jump out at you and you can't 
argue what the numbers are. That is why we sent the team out 
there. So something was going on that we had to go address. And 
really getting that airplane back to Boeing to give us more 
insight on the system; is the Growler, like I said, challenging 
the ECS system with additional avionics more than the other 
airplanes.
    Mr. Larsen. So it is one airplane. Do you think it is other 
airplanes? And therefore, is it a manufacturing issue? Is it a 
design issue?
    Admiral Moran. I don't know if it is a manufacture or 
design--it is just not--we just have an airplane that we had 
the problems on that we want to send back to Boeing and take a 
look at. So we are going to determine that when we get done 
with the evaluation, if there is anything further in the design 
we need to change or any hardware pieces that we have to 
change.
    Mr. Larsen. Admiral Miller, did you want to add anything on 
that?
    Admiral Miller. No, sir. I think he covered it. And I have 
nothing else to add, sir.
    Mr. Larsen. All right. Well, certainly we are very 
interested back home and I think the entire Navy obviously is 
very interested in that. I appreciate the attention on that.
    With regards to Admiral Moran, can you give an update on 
MAGIC CARPET [landing system], on the timeline for deployment 
to the fleet?
    Admiral Moran. Yes. So we have released MAGIC CARPET on an 
early iteration of software. The fleet asked, can they have 
that deployed earlier than we originally planned? So we 
supported that on the----
    Admiral Miller. It is on Bush right now, deployed.
    Admiral Moran. Bush right now.
    Admiral Miller. So what I will tell you, sir, is it is 
phenomenal. And it is the same as what we saw with DT3 and the 
F-35 with Delta Flight Path [landing technology], very similar 
software. So George Bush, who is on deployment now, that was my 
old strike group, so I keep in touch with those guys. And they 
are saying this is absolutely phenomenal. Their boarding rates 
are higher than what they have obviously seen in the past. And 
I have only flown the simulator, because I had to see it for 
myself. And I was almost--not to say bored landing on a 
carrier, but it was--it sure made it a lot nicer.
    Mr. Larsen. I wouldn't say that.
    Admiral Miller. No, sir.
    Mr. Larsen. But on that point, what kind of an impact do 
you think that will have on training requirements? Specifically 
FCLPs [field carrier landing practices]?
    Admiral Miller. Yes, I think that is still to be 
determined. One, we are going to have to get it throughout the 
fleet. One could surmise that obviously our FCLP requirements 
could go down. Clearly, we still want to train especially our 
young pilots the full scope. And so we are talking about that 
right now. Can we take maybe some of those flights per pilot, 
per workup, and turn those into tactical flights? So I think we 
will learn as we go on this, and we will obviously err towards 
safety and making sure that launching and recovering from 
aircraft carriers, those skills are not diminished.
    Mr. Larsen. Thank you very much. Thank you, Mr. Chairman.
    Mr. Turner. Thank you. If there is no objection, we will go 
to Mr. Langevin for the completion of his questions.
    Mr. Langevin. Thank you, Mr. Chairman. So even with the 
service life extension programs, I understand that strike 
fighter readiness has taken considerable risk to meet 
operational commitments. Utilization rates have surpassed 
projected norms, leaving the maintenance depots insufficiently 
equipped to handle the demand rates. And your testimony 
indicated that the ongoing strategic requirements will further 
deteriorate readiness.
    I don't know if this question had been addressed earlier, 
but in your opinion, is fast-tracking procurement of the Joint 
Strike Fighter the solution for strike fighter readiness today? 
And if it is not, or even if it is a partial solution, what is 
the near- to midterm solution that may aid the strike fighter 
inventory management process?
    General Davis. If I could, I could start that one, sir, 
from the Marine Corps. So we have the oldest TACAIR platforms 
in the Marine Corps. And Admiral Miller talked about 
consumption. A lot of--when you talk about down strike 
fighters, a lot of those are Marine F-18s that were wearing 
out, some of the oldest ones. A lot of those airplanes will be 
replaced by F-35, so absolutely positively yes. And F-35Bs, the 
vast majority. The faster we can buy those airplanes, the 
better that will be for the United States Marine Corps.
    And we are going to buy about--we are going to buy about 18 
squadrons of Bs and 4 squadrons of Cs. That includes our 
training squadrons. And they replace 22 squadrons that we have 
right now, 2 training squadrons, 20 TACAIR squadrons. So kind 
of a one-for-one replacement. The faster we can do that, the 
better we get out of these old airplanes.
    And you weren't here, sir, but we talked about the old F-
18s we have, safe, but it is about a 55 percent failure rate 
after that first sortie, or break rate. They do fly that first 
op in the morning, and they are not able to go do the second 
one. So absolutely we need to do that as quickly--for Bs and Cs 
for the United States Marine Corps.
    Mr. Langevin. Thank you.
    Admiral Miller. Yes, sir, to summarize some of our earlier 
testimony, I break it up into readiness and shortfall as two 
different categories. Readiness in my mind is taking airplanes 
that we currently own today that are in a non-flyable status 
and getting them to a flying status. Partly driven they have 
gotten to that point because of funding issues, stability in 
funding, and then just being overused.
    So a lot of that fixes, if you will, to mitigate that is 
funding related and stability in those accounts, the enabler 
accounts and flying hour accounts over time. The shortfall has 
to do with consumption, the fact that we are taking our 
existing--for example, F-18 Es and Fs with the 6,000-hour 
flight time limit and we are just flying them at a much higher 
rate as you mentioned than we had planned.
    Additionally, if you recall, F-35 right now at this--from 
when it started, we are almost a decade late. We were supposed 
to have 10 squadrons of F-35Cs at this point in the game, which 
are now F-18 Super Hornets, again, consumption of those assets, 
which drives that shortfall.
    So, in essence, sir, I think as far as the procurement goes 
to address the shortfall needs, we need to be buying both F-18s 
and F-35s.
    Mr. Langevin. Thank you, gentlemen. Again, thank you for 
your testimony here and your service to the country. Thank you, 
Mr. Chairman. I yield back to you.
    Mr. Turner. Our final and brief question will be by Ms. 
Tsongas.
    Ms. Tsongas. I just wanted to follow up on the independent 
review team. Last year's NDAA mandated that the Navy put 
together one that you would report to us by December 1st. I 
would take the answer in writing, but just wanted to know where 
that stands, the composition, what your timelines are. Do you 
expect to meet that December 1st deadline? So just because 
these incidents are ongoing and very serious, and do think this 
team has an important role to play. So leave it at that, but 
thank you all for your testimony today.
    Mr. Turner. No question then?
    Ms. Tsongas. No question. I did. I will take the answer in 
writing.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Turner. Ah, excellent. Well, in that case, we will be 
adjourned. Thank you.
    [Whereupon, at 5:30 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

           
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 28, 2017

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 28, 2017

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. BROWN

    Admiral Moran. Recompression chambers (RCCs) are valuable assets to 
the diving community and are limited in number. As part of our naval 
aviation's Physiological Episode (PE) mitigation efforts, the diving 
community was engaged to leverage their expertise with decompression 
sickness and effective treatments. Naval Sea System Command (NAVSEA) 
00C, responsible for RCC policy, acquisition and oversight, and Navy 
Expeditionary Combat Command (NECC), responsible for the vast number of 
RCC support team qualified personnel, have been working with naval 
aviation to help source a deployable chamber capability while 
maintaining the requisite numbers of chambers and qualified personnel 
to support their global dive operations. Through close coordination, 
plans have been developed that ensure an RCC capability exists and will 
continue to exist for deployed aircraft carriers. As of January 2017, 
all carriers will be supplied with RCCs throughout their deployments. 
There are numerous RCC facilities throughout the country that may be 
used to treat aviators that may be affected while flying in one of our 
domestic or local off-shore training ranges; therefore, the focus has 
been upon sourcing those aircraft carriers that are deployed and well 
out of range of any land-based RCC. Working with NAVSEAA 00C, NECC and 
other fleet stakeholders, a plan is being developed that ensures RCC 
capability on those deployed carriers for as long as is needed. This 
plan is not only for the physical chambers but also the highly-
qualified personnel required to operate and maintain these chambers. 
There are three primary variants of RCCs in use by the Navy, with 
varying capacities and size, weight and power demands, as well as 
varying levels of availability due to sheer numbers. Each variant is 
capable of being deployed on an aircraft carrier, with different 
degrees of impact to shipboard operations (primarily due to the size of 
the chambers). The staffs of NAVSEA 00C, NECC, and the Commander, Naval 
Air Forces, Pacific, have developed and continue to refine a plan that 
balances the available chambers and best ensures both the aviation and 
dive communities maintain rapid access to RCCs to ensure the safety and 
well-being of their personnel.   [See page 27.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MS. TSONGAS
    Admiral Miller. The Naval Air Systems Command (NAVAIR) has 
coordinated with the National Aeronautics and Space Administration 
(NASA) Engineering and Safety Center (NESC) to conduct an independent 
review of F/A-18 Physiological Episodes (PE). The team members consist 
of NASA engineers and aerospace medical professionals. The NESC team is 
reviewing the Navy's PE investigation process, ongoing root cause 
analysis and mitigations, as well as the performance of the F/A-18 
Onboard Oxygen Generating System (OBOGS) and Environmental Control 
System (ECS). In additional to extensive coordination and data-sharing 
with NAVAIR, their itinerary includes fact-finding visits to F/A18 
squadrons at Naval Air Station Oceana, the depot overhaul for ECS 
components at Fleet Readiness Center East, a trip aboard an aircraft 
carrier to witness embarked flight operations, and a visit to Training 
Wing ONE in Meridian, Mississippi. NASA is accelerating completion of 
the Independent Review and NAVAIR expects to receive NASA's report in 
August of 2017.   [See page 34.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 28, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. The Assistant Commandant of the Marine Corps, General 
Walters, recently testified before the committee ``the most acute 
readiness concerns are found in our aviation units, and approximately 
80 percent of our aviation units lack the minimum number of ready basic 
aircraft (RBA) for training, and we are significantly short ready 
aircraft for wartime requirements.'' You obviously are facing 
significant readiness challenges with respect to tactical aviation. 
What are you doing to help mitigate this crisis and improve the current 
situation described by General Walters?
    General Davis. In an effort to recover readiness, Marine Corps 
leaders have prioritized and balanced funding between readiness 
accounts and procurement of new aircraft to enable recovery. 2016 was a 
transitional year, and while some efforts for recovery of funding were 
identified, the majority of long-term recovery efforts began in 2017.
    There are many reasons for these reduced readiness numbers.
    1. Budget constraints lowered readiness funding;
    2. High Operational Tempo;
    3. Aging aircraft have not been replaced or reset. Less-than-
optimal procurement rates to replace over-age and aging aircraft, which 
is critical to maintaining our capability over near peer competitors;
    4. Spares--Aircraft Not Mission Capable Supply rates are 25+%;
    5. RBA recovery has stalled. There is a two-year lag between 
funding readiness accounts and realized gains;
    6. Continued support of readiness and Flight Hours Program is 
critical;
    7. RBA aircraft is 441. Marine aviation requires 589 to maintain T-
2.0 and 690 to achieve a ready bench.
    The flight hour metric, while not the only measure of capability, 
is an indicator of the depth of the material bench and of the ability 
to surge. Marine aviators and aircrew operate in high-tempo 
environments, flying increasingly complex mission profiles. The time 
between operational deployments is decreasing, the inventory of 
aircraft to train with is decreasing and today's aviators are not 
getting enough ``looks at the ball'' to ensure they are as proficient 
as they should be.
    Marine aviation initiated six Independent Readiness Reviews (IRRs) 
beginning in December 2014. To date, AV-8Bs, CH-53Es, H-1s, MV-22s, as 
well as an aviation ground MISHAP review are complete. These reviews, 
led by independent leaders outside the Naval Aviation Enterprise, 
provide different perspectives, assessments and courses of action to 
achieve positive gains and meet readiness requirements. Since 
implementation, there are more Ready Basic Aircraft (RBA) on the flight 
line than previous years, and the recovery effort focuses on four 
primary lines of effort: 1) Depot throughput; 2) In-service repairs; 3) 
Non-mission capable supply; 4) Non-mission capable maintenance. The 
common thread in each IRR focused on non-mission capable supply 
aircraft and identified funding shortfalls in readiness accounts as a 
critical factor. PB-18's focus is to fund these accounts to to the 
maximum executable level, ensuring stable and predictable funding to 
support Marine Aviation's recovery to training levels by FY20 and a 
ready bench by FY22.
    Four main factors surfaced within each IRR (with different 
combinations in each Type/Model/Series): People, Parts, Process, and 
Funding. The Marine Corps is tackling these components head-on. 
Continuing resolutions and delays in budgets have stalled recovery in 
the short-term.
    The real key to reducing risk in capacity and recovering future 
readiness is through recapitalization of the fleet--transitioning to 
new aircraft. The Marine Corps is 41% through its aviation fleet 
transition of every type/model/series. 28 squadrons are complete with 
40 awaiting transition. This recovery plan balances current readiness 
and modernization to maintain and increase our operational advantage as 
we procure a new aircraft and transition to a modern force.
    Mr. Turner. In your written testimony, you mention recent 
improvements in your AV-8B Harrier readiness due to initiatives you 
have incorporated since the Harrier Independent Readiness Review. What 
improvements have the Marine Corps made as a result of this review?
    General Davis. Major initiatives taken post-2014 Harrier 
Independent readiness review (HIRR) include: establishment of the PMA-
257 readiness cell; key recurring stakeholder engagements; prudent 
Operations and Maintenance, Navy (OM&N) funding justification and 
execution, to identify, develop, and implement sustainable solutions 
for AV-8B readiness inhibitors through transition (moving from reactive 
to predictive); and the ``Green in 3'' Initiative which concentrates 
TMS focus on supply support, support equipment, maintenance training, 
and technical publications as the critical paths to AV-8B readiness 
optimization by FY19. Specifics associated with each of these 
initiatives are:
    --Readiness cell: (current readiness) direct flight-line support--
GR9/Mk107 material management, Reclamation in Lieu of Parts (RILOP), 
and Stricken Aircraft Reclamation and Disposal Program (SARDIP); 
(future readiness) trend analysis and stakeholder integration, 
Engineering Bills of Material (EBOM) development, consumable material 
forecasting, Critical Parts Repository (CPR), Diminishing Manufacturing 
Sources and Material Shortages (DMSMS) and obsolescence management.
    --Key stakeholder engagements: Bi-monthly F402 engine and Gas 
Turbine Starter (GTS) management boards, monthly Periodic Maintenance 
Interval (PMI) inhibitor calls, monthly Critical Parts Review (CPR) 
calls, bi-annual Harrier Alignment Working Group (HAWG) meetings, and 
bi-annual UK vendor summits. The regular ``drumbeat'' engagements have 
synergized stakeholder efforts to improve material availability for AV-
8B airframe and mission systems and the F402-RR-408B Pegasus engine at 
both Naval Supply Systems Command for repairable components and at 
Defense Logistics Agency for consumable ``piece parts''.
    --Prudent Operations and Maintenance, Navy (OM&N) funding 
justification and execution: close collaboration with USMC and OPNAV 
Resource Sponsors, to clearly define and articulate Program Related 
Logistics (PRL) and Program Related Engineering (PRE) funding 
requirements ensured that all requirements were accurately identified 
and entered into the Optimized Performance Model, prioritized, and 
executed. This Planning, Programming, Budgeting and Execution 
discipline helped garner full funding in FY18.
    --``Green in 3'': AV-8B Support Equipment (SE) reconciliation and 
sustainment (18-month initiative) commenced April 2017. A comprehensive 
assessment of fleet AV-8 common and peculiar SE is in work, to include 
sourcing of material equipment shortfalls, enhanced repair 
capabilities, review of fleet management practices, and supplemental 
training. Additionally there was a large effort to modernize and update 
AV-8B publications; 266 publication updates are on contract with 171 
delivered as of 31 May 2017, with the remainder on schedule to be 
delivered by the end of the FY17. 528 Technical Publications 
Discrepancy Reports (TPDR) were initiated with 415 closed or 
incorporated. Integrated Publication Reviews (IPR) with PMA-257, AV-8B 
FST, AV-8B Fleet, and OEM(s) participation have been conducted or are 
planned; three IPRs are complete and three are scheduled for completion 
in FY17.
    Mr. Turner. What is the optimal production ramp rate for F-35B 
procurement for the Marine Corps? When are you projecting to be at this 
optimal rate and if additional funding was provided could you 
accelerate this production?
    General Davis. An optimal F-35B ramp for Marine Aviation, across 
the FYDP would be 19, 23, 23, 23, 30 and up to 37 in 2023, increasing 
to full rate production outside the FYDP until we complete our program 
of record. This gets us out of legacy aircraft and into new aircraft 
faster, saves money in procurement spending, avoids the increasing O&S 
costs of legacy platforms, and eliminates redundancies by modernizing 
from the current three legacy aircraft into the Joint Strike Fighter.
    Mr. Turner. How will F-35B production help with mitigating current 
strike fighter readiness challenges for the Marine Corps?
    General Davis. The Marine Corps has a very different readiness 
model when compared to the other services. We are small in size, but 
are required to maintain a constant state of high readiness. As the 
``Nation's Force in Readiness,'' the answer to our tactical aircraft 
readiness challenges lies in the recapitalization of our legacy fleet, 
a process currently flowed out over the next 14 years, completing in 
2030. The average age of any Harrier or Hornet in the Marine Corps is 
22 years. The oldest Harrier in the inventory is 28 years old. The 
oldest C and D Hornets in the inventory are pushing 30 years, built 
just after Apple rolled out the first personal computer. These aircraft 
will be well into their 40s at the end of the transition. While these 
aircraft have met the call of duty and performed brilliantly in battle, 
maintaining aging legacy platforms is a challenge that costs more over 
time, especially with today's high operational tempo. Transitioning the 
fleet from legacy into F-35 as fast as prudently possible is the only 
way to ensure tactical readiness for future demands.
    Mr. Turner. The Navy finds itself in the unique position of being 
able to leverage the progress of the F-35C program efforts before 
having to operationally field the aircraft. This also provides the Navy 
the opportunity to recapitalize their strike fighter fleet with the F/
A-18E/F Super Hornet, to bridge the near term need while preparing for 
the increased capability of the F-35C to be completely fielded. Please 
describe for the subcommittee how the Navy envisions this process 
moving forward to achieve the warfighting requirements now and in the 
future? Will you require additional resources to achieve your plan?
    Admiral Miller. To provide force projection and maintain air 
superiority for the Carrier Strike Group, a mix of 4th and 5th 
Generation Strike Fighters is required to win the fight. The Navy's 
current strike fighter acquisition strategy, blending F/A-18E/F and F-
35C procurement, while modernizing all Carrier Strike Wing platforms 
optimizes resources to meet Fleet requirements under the current fiscal 
and production constraints. In the near term, the Super Hornet is 
planned to be the majority of the Carrier's Air Wing into the 2030's. 
The F/A-18 E/F provides capability and capacity to the fleet to meet 
all the carrier strike tactical aviation mission sets and kill chains. 
Of the 551 FA-18E/F inventory, 132 are older Block I aircraft with 
limited capability against advanced threats compared to the later Block 
II Super Hornets. The Department is committed to maintaining the F/A-18 
E/F lethality and survivability through affordable and achievable 
upgrades throughout the life of the platform to achieve the 
capabilities required to win. With rapidly evolving potential 
adversaries, substantial force modernization is necessary to pace the 
threat. The Department continues to evaluate an F/A-18E/F Block III 
upgrade. Block III includes low risk changes which can be incorporated 
in the near term with a combination of forward fit production line 
incorporation and via retrofit modifications to the aircraft already 
planned as part of the Service Life Modification Plan. These Block III 
capabilities in a networked Integrated Fire Control Environment with 
the F-35C, EA-18G and E-2D will keep the Air Wing ahead of the 
projected threat. Block III Super Hornets will be complementary to the 
F-35C in range, in data processing and in direct Air-to-Air and Air-to-
Ground combat operations, and is considered to be very low risk from a 
technology maturity, cost and technical feasibility to integrate. 
Follow on options involving changes to the radar, the engines or the 
electronic warfare suite are considered higher risk and can be 
considered in the future.
    Mr. Turner. What has changed over the last 2-3 years that has 
affected the Navy's strike fighter shortfall? How is the Navy 
addressing this shortfall? Are the Navy's current plans in the future 
year defense program for procurement of F/A-18E/Fs and F-35Cs 
sufficient to address the strike fighter shortfall?
    Admiral Miller. We deploy our Carrier Strike Groups for strategic 
maritime control, for deterrence in places like the South China Sea or 
off the Korean Peninsula, and to project power where needed as in Syria 
and Iraq for the global fight on terror. The pace of deployed 
operations has not slowed, but the Strike Fighter inventory to conduct 
those operations continues to shrink as we expend approximately 2-3 
Strike/Fighter squadrons per year. Navy tactical aircraft are designed 
for a limited service life. The F/A-18 variant was designed to fly 
6,000 flight hours and to be in service 23 to 25 years. After 6,000 
flight hours, the aircraft will need to be stricken from the inventory 
since it has expended the designed service life of the airframe, 
systems and components. The F/A-18 fleet is flying on average 180,000 
flight hours per year, which equates to the entire fleet expending 24-
36 aircraft worth of service life per year, or approximately 2-3 
squadrons. To complicate the situation, years of underfunded readiness 
accounts due to fiscal constraints of the Budget Control Act, and 
Bipartisan Budget Acts, have left Navy shelves short of parts, and many 
aircraft sit on the ramp in a non-mission capable status. This 
operational tempo and aircraft expenditure made strike fighter 
inventory management more challenging. To address this growing strike 
fighter shortfall, the Navy has three basic options or ``levers'':
    Manage and conserve hours on our aging fleet--unfortunately the 
world gets a vote and our operational tempo has not slowed;
    Extend aircraft service life from their originally planned 6,000 
hours to 9,000 hours (or more) using our aviation depots and commercial 
assistance;
    Procure new aircraft. The Navy expects the first F/A-18E/F to reach 
6,000 hours in CY 2018. By the mid-2020s, we expect to induct 60-70 
aircraft per year into our depots. To solve our existing Strike Fighter 
gap, cover the surge in depot throughput, and increase capacity and 
readiness on the flight line, we must procure aircraft throughout the 
FYDP. The FY17 Appropriation begins to address these issues through 
increased funding of readiness accounts, depot maintenance and Super 
Hornet procurement, but sustained funding of procurement are necessary 
to solve the long-term Strike Fighter inventory problem.
    Mr. Turner. Please provide the subcommittee with a short update on 
the readiness status of current Navy strike fighters. Do you have 
enough inventory capacity to meet current demands?
    Admiral Miller. The current readiness of Navy strike fighters is 
at, or near, historical averages but remains significantly below the 
Chief of Naval Operation's goal of 56 percent Full Mission Capable and 
73 percent Partial Mission Capable. The Department of the Navy has the 
required inventory of strike fighter aircraft to meet current demands. 
This inventory can be described in terms of available aircraft and non-
available aircraft. Available aircraft totals are challenged by fleet 
demands. Non-available aircraft include any aircraft that is not 
available for flight or mission operations. Generally, aircraft are 
not-available due to extended maintenance in depots or they are on the 
flight line awaiting parts or maintenance. The Navy will continue to 
manage available aircraft to meet operational commitments. The Navy 
mitigates available aircraft inventory by moving aircraft from Air 
Wings that are in maintenance phase following deployments to fill 
strike fighter gaps in deployed squadrons, Fleet Replacement squadrons 
and Test and Evaluation squadrons. This lack of available aircraft to 
support maintenance phase squadrons imposes significant risk to the 
Navy's next deployers. Non-available aircraft are managed through the 
Department of the Navy's Strike Fighter Inventory Management (SFIM) 
program. SFIM is an ongoing Naval Aviation Enterprise effort to manage 
capacity, readiness gaps and future inventory shortfalls.
    The high risk in strike fighter inventory levels is due to:
    Unexpected Consumption Rates: Global Force Management Allocation 
Plan (GFMAP) demand higher than planned. Strike Fighter readiness 
levels have been reduced due to overutilization and years of 
underfunded and unstable readiness enabler accounts.
    F/A-18E/F Service Life Modification (SLM) Program: The first 
aircraft in the F/A-18E/F fleet reaches design limits (6,000 hours) in 
Fiscal Year (FY) 2018. The Navy needs to extend the life of these 
aircraft to 9,000 hours to meet SFIM targets through 2035. This will 
require 60-70 aircraft, at a time, to undergo a year long extended 
maintenance in a not-available status.
    F-35C delays: Navy requires block 3F-equipped F-35C aircraft to 
support Initial Operational Capability (IOC) in early 2019. Based on 
this unique Service requirement, sliding the procurement of properly 
equipped F-35C aircraft from 2012 to 2019 has exacerbated the impact of 
not replacing F/A-18s at a requisite rate. Strike fighter demand 
pressure is expected to remain high through FY18. In addition to 
expected (continued) operational demands the Navy will experience peak 
depot inductions for F/A-18A-Ds reaching 8,000 hours. PB-17 investments 
fully funding depot capacity will improve depot turn-around time.
    The Navy has a focused approach to return not-available aircraft to 
available status faster:
    Prioritized funding will continue to improve readiness (available 
aircraft) that has resulted from years of underfunded readiness enabler 
accounts. Ongoing High Flight Hour (HFH) inspections, repairs/
modifications and recurring inspections will improve availability out 
to 8,000 flight hours for select F/A-18A-D Legacy Hornets. F/A-18E/F 
Service Life Assessment Plan (SLAP) will complete in FY 2018. Planned 
E/F tear-downs validate SLAP hot-spot engineering analysis and reduce 
risk by identifying corrosion problem areas early. Based on SLAP 
analysis, Service Life Extension Program (SLEP) kits were pre-ordered 
and are planned for FY 2024.
    Procurement Capacity: Production capacity currently exists in the 
F/A-18E/F production line to meet the required need for strike fighter 
inventory shortfalls caused by current shortfalls. The PB17 F-18E/F 
procurement plan complements planned F-35C deliveries as F-35C 
capabilities mature. FY 2017 Appropriations Act funds 14 F/A-18E/F, 8 
F-35C and 18 F-35B aircraft. The table above updates the current 
readiness status of Navy strike fighters as of 13 June 2017.
    Mr. Turner. The Navy has always said that their requirement is to 
have a combination or mix of 4th gen and 5th gen aircraft. Based on the 
current assessment that the Navy is doing in regards to the SECDEF 
directive, will the Navy's requirement for F-35C variants remain at 260 
aircraft?
    Admiral Miller. As mentioned in our written statement of 28 March 
2017 the Navy's F-35C requirement and Program of Record (POR) is 340 
aircraft, which includes 67 Marine Corps F-35C aircraft. This 
requirement supports 18 operational squadrons distributed across nine 
carrier air wings.
    Mr. Turner. What are the effects of a year-long continuing 
resolution to the Navy's strike fighter fleets?
    Admiral Miller. A year-long Continuing Resolution (CR) would limit 
surge capability and substantially impact Naval Aviation's personnel, 
training and equipment readiness. The Navy's associated impacts to 
Naval Aviation is based on the draft 2017 CR plan provided below. A 
full CR in 2018 would have similar impacts.
    1. Personnel: a. Reduce accessions by 1,000--gaps billets in both 
sea and shore positions. b. Stop incentive (bonus) payments--reduces 
retention of experienced and specialized Sailors. c. Delay shore duty 
orders--maximize sea duty manning. d. Delay orders funding until one 
month prior to transfer--causes undue family stress and reduced quality 
of life--reduces retention. e. Training impacts to manning--delays 
accession deliveries due to reduced training flight hours. f. Cancel 29 
Blue Angels demonstrations--reduces interest for accession candidates. 
g. Reduce/Cancel Fleet Weeks--reduces interest for accession 
candidates.
    2. Training: a. Reduced flight hours for all aviation--reduces 
readiness and proficiency. b. Fleet Replacement Squadrons flight hours 
reductions (15-20 percent). One-third of all junior aviators will not 
achieve basic qualifications. Squadrons undermanned 20-30 percent 
(experience and qualification)--impacts readiness for several years. c. 
Cancel exercises such as Northern Edge--degrades fleet readiness and 
Joint integration training.
    3. Equipment: a. Depot maintenance and parts funding shortfalls--
one-third of all aircraft will remain fully mission capable through 
with recovery time measured in months. b. Shut down four of nine non-
deployed Carrier Air Wings--delays deployments and gaps Carrier Strike 
Group availability. c. Fleet readiness degraded by cancellation/
deferment of depot maintenance (carriers, surface ships and 
submarines)--impacts private shipyard and contractor work and reduces 
surge capability of the Carrier Strike Group
    Mr. Turner. What has the Navy done since last year's testimony to 
resolve the physiological episode issues being experienced in the F-18 
Fleet?
    Admiral Moran. Over the past year, the Navy has pursued multiple 
lines of effort to reduce the frequency and consequence of 
physiological episodes in the F/A-18 and EA-18G fleet. We have 
implemented conservative life limits on critical Environmental Control 
System (ECS) components to reduce the likelihood of on-aircraft 
component failure. Previously, these components were replaced only 
after a failure was detected, which sometimes manifested itself in a 
pressurization-related event. The Naval Air Systems Command (NAVAIR) 
has identified and corrected production deficiencies with F/A-18A-D 
Cabin Exit Air Valves and Temperature/Flow sensors that contributed to 
Hornet ECS malfunctions. As a broader corrective action, we have 
initiated a review of depot Acceptance and Test Procedures (ATP) for 
other critical components. Aircrew procedures (NATOPS) and maintenance 
procedures have been updated to ensure lessons learned from 
investigations are provided to the fleet. The Navy acquired and fielded 
Slam Sticks<SUP>TM</SUP> to record cabin altitude for use in aircraft 
ECS troubleshooting and when necessary to aid in aircrew diagnosis. 
Slam Stick<SUP>TM</SUP> are currently employed by all Navy F/A-18A-D 
squadrons, and are rapidly being acquired for remaining F/A-18 
variants. We have continued to replace sieve bed material and add a 
carbon monoxide catalyst to F/A-18 Onboard Oxygen Generation System 
(OBOGS) concentrators, with 84% of in reporting aircraft and 99% of 
deployed aircraft complete. Additionally we have used sorbent tubes to 
collect breathing gas samples from over 300 EA-18G sorties, none of 
which suggested breathing gas contamination as a source of EA-18G PEs. 
On the aircrew side, we have increased the frequency and quality of 
awareness training using the Reduced Oxygen Breathing Device, and are 
in the early stages of developing a wearable physiological monitoring 
system. Aircrew are also being protected from the effects of 
decompression sickness by ensuring decompression chambers are readily 
available both afloat and ashore.
    Mr. Turner. We have heard about lessons learned from legacy Hornets 
that should help the service life extension program for the Super 
Hornet. With the aviation depots falling under NAVAIR's purview, can 
you provide some specific details on how the Navy is altering the 
workflow and processes at the depots to extend the life of the F/A-18 
E-F?
    Admiral Moran. Lessons learned from legacy Hornet have resulted in 
a significantly different approach for Super Hornet service life 
extension. Material supply challenges and non-standardized repair 
requirements driven by material condition challenges have hampered 
legacy Hornet life extension efforts. For the first several years, the 
Super Hornet Service Life Modification (SLM) program will be 
accomplished at a Boeing commercial depot rather than using organic 
depot facilities. This approach will leverage the supply chain and 
technology of the currently active F/A-18E/F Super Hornet production 
line while incorporating the latest industry best practices to 
standardize production flow and speed delivery of extended life 
aircraft. Rather than relying on government resources, these 
improvements will empower Boeing to perform engineering and material 
requirements under the SLM Contract. In addition, protocols have been 
established to ensure knowledge gained from material condition findings 
during SLM are incorporated into fleet preventative maintenance 
practices resulting in better aircraft material condition at induction. 
Taken in the aggregate, these efforts are expected to minimize material 
issues, enhance service life extension predictability and reduce SLM 
cycle time, thus returning aircraft to fleet customers in less time 
than under previous efforts.
    Mr. Turner. Sustainment of the F-18E/F fleet is critical but what 
type of capability requirements are also necessary to keep the platform 
operationally relevant into the 2030s as required to meet evolving 
threats?
    Admiral Moran. To provide force projection and maintain air 
superiority for the Carrier Strike Group, a mix of 4th and 5th 
Generation Strike Fighters is required to win the fight. The Navy's 
current strike fighter acquisition strategy, blending F/A-18E/F and F-
35C procurement, while modernizing all Carrier Strike Wing platforms 
optimizes resources to meet Fleet requirements under the current fiscal 
and production constraints. In the near term, the Super Hornet is 
planned to be the majority of the Carrier's Air Wing into the 2030's. 
The F/A-18 E/F provides capability and capacity to the fleet to meet 
all the carrier strike tactical aviation mission sets and kill chains. 
Of the 551 FA-18E/F inventory, 132 are older Block I aircraft with 
limited capability against advanced threats compared to the later Block 
II Super Hornets. The Department is committed to maintaining the F/A-18 
E/F lethality and survivability through affordable and achievable 
upgrades throughout the life of the platform to achieve the 
capabilities required to win. With rapidly evolving potential 
adversaries, substantial force modernization is necessary to pace the 
threat. The Department continues to evaluate an F/A-18E/F Block III 
upgrade. Block III includes low risk changes which can be incorporated 
in the near term with a combination of forward fit production line 
incorporation and via retrofit modifications to the aircraft already 
planned as part of the Service Life Modification Plan. These Block III 
capabilities in a networked Integrated Fire Control Environment with 
the F-35C, EA-18G and E-2D will keep the Air Wing ahead of the 
projected threat. Block III Super Hornets will be complementary to the 
F-35C in range, in data processing and in direct Air-to-Air and Air-to-
Ground combat operations, and is considered to be very low risk from a 
technology maturity, cost and technical feasibility to integrate. 
Follow on options involving changes to the radar, the engines or the 
electronic warfare suite are considered higher risk and can be 
considered in the future.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. This quote appears in your joint prepared testimony: 
``Of 382 cases adjudicated by the PET so far, 130 have involved some 
form of contamination, 114 involved an ECS component failure, 91 
involved human factors, 50 involved an OBOGS component failure, 13 
involved a breathing gas delivery component failure, and 76 were 
inconclusive or involved another aircraft system failure.''
    Can you define the term ``adjudicated'' in this case? You note that 
``76 were inconclusive'' which might lead some to believe the others 
were conclusive, and I'd appreciate clarification on this terminology.
    Admiral Miller. At the conclusion of its investigation into a 
physiological event, the investigating team presents its findings to a 
board consisting of subject matter experts from around the Naval 
Aviation Enterprise. The board reviews the findings of the 
investigation team and ``adjudicates'' the event by either assigning it 
a root cause or rendering its cause inconclusive.
    Ms. Tsongas. As you know, the Independent Review Panel is taking 
shape as the Navy-led Physiological Episode Team continues to work with 
industry to investigate and determine the causes of these episodes. 
Both of these teams are working while we continue to invest in service 
life extensions (or SLEP) for older F-18s and in the acquisition of new 
F-18s. Though neither team has reached definitive conclusions, I'd like 
to get your sense on how the Navy and industry are using preliminary 
findings--both during SLEP and for new buys--to enhance the safety of 
the fleet with regard to the life support system.
    Admiral Miller. The findings to date have led to the implementation 
of new maintenance policies to include a shift to life-limited 
Environmental Control System (ECS) components. Although the majority of 
ECS-related events have occurred on F/A-18A-D aircraft, the same life 
limits were placed on F/A-18E/F and EA-18G, and this change is expected 
to reduce ECS failure rates as these aircraft continue to age. This 
change will also be incorporated into our Service Life Management (SLM) 
effort and any design changes realized through this process will also 
be incorporated into the production line. Similarly, when Onboard 
Oxygen Generating System (OBOGS) concentrators were upgraded with new 
sieve bed material and carbon monoxide catalyst (currently 84% complete 
with in reporting aircraft), these items were tracked to enable 
preemptive replacement. Additionally, we currently have two Super 
Hornets at Boeing for an ``early look'' investigation as part of our 
build up to F/A-18E/F Service Life Modification (SLM). The ECS of these 
aircraft will be examined, and the findings will also be used to plan 
any necessary ECS maintenance during SLM of future aircraft.
    Ms. Tsongas. The information provided by the Navy in the testimony 
shows a rate of ``physiological events'' in the T-45 flight training 
aircraft during fiscal year 2016 of 46.97 events per 100,000 flight 
hours. That is actually higher than the rate of such events for the F-
18 E/F ``Super Hornet'' during that same time period.
    Many efforts are underway in the F-18 fleet on this issue. What 
mitigation measures are in place in the T-45 fleet to reduce the risk 
of accident from such events?
    Because this is an aircraft flown by inexperienced student pilots, 
is there additional risk from these incidents since the students don't 
have the experience on how to deal with them?
    Admiral Miller. Measures already in place to mitigate T-45 
Physiological Episode rate and severity include oxygen system changes, 
process improvements and elevated aircrew awareness. System changes 
include an upgrade to newer and higher-performing oxygen-generating 
material, addition of a carbon monoxide catalyst to neutralize this 
known contaminant produced by jet engines, and revised component 
installation procedures to eliminate known sources of air leaks. 
Process improvements include procedure changes to optimize oxygen 
system health during both operation and maintenance, more conservative 
decisional thresholds, more stringent passing standards for regularly-
scheduled oxygen system performance checks, and broader air leak 
detection methods. Heightened aircrew awareness efforts include 
recurring scenario-based hypoxia training using the Reduced Oxygen 
Breathing Device, ready room training operational briefs, and new media 
forums to expand idea exchange. Lack of student experience has been 
mitigated during under-graduate training through a strong ethos of 
adherence to carefully prepared procedures. These procedures are the 
foundation of safe operations in all training events and especially the 
roughly 25 percent of syllabus flights flown by student solos.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. China has been increasingly aggressive in the South 
China Sea in exerting a military presence. They've invested in an 
indigenous carrier capability, developed domestic stealth fighters in 
the J-20 and J-31 that can attack from land and sea, and have converted 
man-made islands and atolls into military bases. How will the initial 
operating capability (IOC) of the F-35B enable the U.S. to counter this 
aggression beyond what is achievable with previous aircraft?
    General Davis. The F-35 is without a doubt the most advanced, mass-
produced fighter aircraft in the world today. However, advanced 
aircraft and corresponding capabilities produced by competitors shows 
our advantage is shrinking. Other countries are aggressively developing 
low observable aircraft, advanced radars and IR sensors, along with 
highly capable air to air and air to ground weapons to compete with 
U.S. technology.
    The 5th generation capabilities of the F-35 bring stealth and 
sensor fusion to the fight. In an operational setting, this means the 
aircraft has unfettered access to high threat environments and can 
provide real time targeting through overcast weather. Our legacy 
systems cannot target through visible obscuration such as an overcast 
cloud layer. Even a single well-placed medium threat surface-to-air 
capability would create a significant hurdle for a legacy system--where 
a 5th gen aircraft would probably categorize a medium threat system as 
a minor nuisance on a strike or close air support mission. Today we use 
a combination of strategic targeting and electronic warfare (EW) assets 
to overcome the aforementioned threats, but an F-35 can operate 
independently and unsupported by dedicated EW assets.
    The F-35 not only has the ability to operate autonomously in these 
environments, but also provides a significant enhancement to our high-
end strategic fight. The jet is not only an extremely effective 
platform for penetrating complex Integrated Air Defenses, it has also 
proven to be a significant contributor to the overall situation 
awareness of the larger combat force by providing threat and targeting 
data to supporting assets over multiple waveforms.
    The proliferation of long-range, precision, conventional threats 
such as advanced SAMs, cruise missiles, and armed UAVs, contests the 
use of traditional bases and methods of operations. With the Short 
Take-Off and Vertical Landing (STOVL) variant of the aircraft, the 
Marine Air Ground Task Force (MAGTF) aviation combat element has the 
ability to conduct distributed aviation operations (DAO) in support of 
land and/or naval campaigns. DAO is a task organized MAGTF operation, 
employing aircraft in a distributed force posture, independent of 
specialized fixed infrastructure. The F-35B will be a key part of DAO 
due to its STOVL capabilities because it expands basing options by 
reducing runway requirements. The F-35B can launch from a sea base or 
land base to conduct multiple missions then re-arm and re-fuel at 
mobile forward arming and refueling points (M-FARPS), which may be 
located closer to or within the operating area.
    The Marine Corps' F-35B brings strategic agility, operational 
flexibility and tactical supremacy to the MAGTF and represents the 
centerpiece of Marine aviation transformation. This aircraft is 
incredibly capable in its 5th generation day one IOC configuration. The 
F-35B unites 5th generation stealth, precision weapons and multi-
spectral sensors with the expeditionary responsiveness of a STOVL 
fighter-attack platform.
    Mr. Langevin. China has been increasingly aggressive in the South 
China Sea in exerting a military presence. They've invested in an 
indigenous carrier capability, developed domestic stealth fighters in 
the J-20 and J-31 that can attack from land and sea, and have converted 
man-made islands and atolls into military bases. How will the initial 
operating capability (IOC) of the F-35B enable the U.S. to counter this 
aggression beyond what is achievable with previous aircraft?
    Admiral Miller and Admiral Moran. Penetrating an advanced 
integrated air defense system (IADS) of a peer/near-peer adversary is 
extremely high risk. The F-35B is capable of exceeding every mission 
essential task assigned while operating in a high threat environment 
due to its advanced stealth technology and sensor fusion technology. 
This ensures greater survivability and mission success in a robust IADS 
environment without external support.
    The Marine Corps' F-35B brings strategic agility, operational 
flexibility and tactical supremacy to the Marine Air Ground Task Force 
(MAGTF) and represents the centerpiece of Marine aviation 
transformation. This aircraft is incredibly capable in its 5th 
generation day one IOC configuration. The F-35B unites 5th generation 
stealth, precision weapons and multi-spectral sensors with the 
expeditionary responsiveness of a Short Take-off and Vertical Landing 
(STOVL) fighter-attack platform.
    The Marine Corps declared F-35B IOC in July of 2015. The aircraft 
is currently tracking to reach its full program-of-record operational 
capability (Block 3F) in the first quarter of calendar year 2018, and 
the full transition from legacy to F-35 will complete with the Marine 
Corps' transition of our second reserve squadron in 2031. Additionally, 
thanks to the support of Congress, as of January 2017, the F-35B is now 
permanently stationed at Marine Corps Air Station Iwakuni, Japan with 
Marine Fighter Attack Squadron 121, at MCAS Yuma, AZ with VMFA-211, and 
at Beaufort, SC with VMFAT-501. VMFA-121 is now forward-deployed with 
Ten F-35Bs in Japan and will have their full complement of 16 aircraft 
by this summer and, by the end of this year, they will fill both the 
31st Marine Expeditionary Unit (MEU) requirement and the land-based 
requirements within PACOM.
    The F-35 is the next generation strike weapons system designed to 
meet potential adversaries that are equipped with advanced anti-access/
area denial long-range precision strike capabilities that threaten 
traditional U.S. power projection through fixed infrastructure and 
naval strike groups while improving lethality, survivability, and 
supportability. It will be the cornerstone of the MAGTF aviation combat 
element and of a multi-mission joint force possessing improved mission 
flexibility and unprecedented effectiveness to engage and destroy both 
air and ground threats. The F-35 was developed using a complete 
analysis of legacy systems strength and weaknesses, emerging threats, 
and consideration of future operating locations. This approach led to 
an aircraft design that incorporates advanced stealth characteristics 
and a powerful sensor suite that provides superior awareness to the 
pilot and ensures increased survivability and lethality in all 
environments.
    The F-35 has an autonomous capability to strike a broad range of 
moving or fixed targets, either day or night and in adverse weather 
conditions. These targets include air and ground threats, as well as 
enemy surface units at sea and anti-ship or land attack cruise 
missiles. The F-35 can complete the entire kill chain without reliance 
on external sources by using fused information from its onboard systems 
and/or other F-35s. This capability allows shortened engagement times, 
less exposure to threats, and retains the element of surprise. Together 
these elements allow the pilot to control the tactical environment 
using proactive tactics. The F-35 provides sensor data to MAGTF command 
and control agencies to enable intelligence collection and targeting 
across the force. The proliferation of long-range, precision 
conventional threats, such as advanced SAMS and cruise missiles and 
armed UAVs, has contested the use of traditional bases and methods of 
operations. While advances have been made to counter such threats, such 
as interdiction, interception, and base hardening, the complexity of 
the problem and sheer number of threats demands that more must be done. 
The MAGTF aviation combat element has the ability to conduct 
distributed aviation operations (DAO) in support of land and/or naval 
campaigns. DAO is a task organized MAGTF operation, employing aircraft 
in a distributed force posture, independent of specialized fixed 
infrastructure. The F-35B will be a key part of DAO due to its short 
take-off and vertical landing (STOVL) capabilities that allows it to 
expand basing options based on reduced runway requirements. The F-35B 
can launch from a sea base or land base to conduct multiple missions, 
with fuel and ordnance resupply conducted at mobile forward arming and 
refueling points located closer or within the operating area. The 
contributions of the F-35B immeasurably enhanced the effectiveness of 
the Marine Air Ground Task Force, most notably through increased 
lethality and battlespace awareness. The 5th generation capabilities 
that the F-35B brings to the mission increase the synergy, awareness, 
lethality and survivability of the entire force.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. GAETZ
    Mr. Gaetz. The T-45 physiological episode rate has increased each 
year from 11.86 per 100,000 hours in calendar year 2012 to 46.97 per 
100,000 in calendar year 2016. The Navy has identified material 
solutions including changes to the oxygen monitor and concentrator. The 
Navy has also identified non-material solutions including training, 
data collection events, and advisories. These actions do not appear to 
be arresting the frequency of physiological episodes in the T-45. What 
additional actions is the Navy contemplating to address these problems?
    Admiral Miller and Admiral Moran. The Naval Air Systems Command is 
pursuing additional system changes to include increased coverage of air 
quality monitoring during training operations, incorporation of a water 
purge valve, a bleed air water separator to improve air dryness, 
renewal of the existing bleed air heat exchanger to improve air 
cooling, new system cleaning procedures, incorporation of a bleed air 
shut-off valve and rapid development of a mask-mounted air filtration 
system to improve air purity.
    Mr. Gaetz. For the F/A-18C community, the Naval Air Systems Command 
(NAVAIR) has taken delivery of an F/A-18C known to have poor 
environmental control system performance to study this aircraft and 
better determine causal factors. Has the Navy considered releasing a T-
45 to NAVAIR to study the on-board oxygen generation system (OBOGS) to 
determine causal factors in this aircraft?
    Admiral Miller and Admiral Moran. The Naval Air Systems Command 
(NAVAIR) already possesses two T-45s that have been used to support 
development of oxygen system improvements. Additionally, CNATRA has 
transferred custody of three Fleet aircraft to NAVAIR that have 
experienced Physiological Episodes previously, which are being studied 
actively via engineering investigations to identify root causes. They 
are also being used as test beds for the development of mitigations.
    Mr. Gaetz. The National Defense Authorization Act for Fiscal Year 
2017 included a provision that requires the Navy to conduct an 
independent review of plans, programs, and research with respect to 
physiological episodes in the F/A-18 Hornet and F/A-18 Super Hornet 
fleets. Does the Navy plan to extend this review to the T-45 aircraft 
as well? If so why, if not why not.
    Admiral Miller and Admiral Moran. In response to a congressionally 
mandated review of PEs, Naval Air Systems Command (NAVAIR) has 
coordinated with the National Aeronautics and Space Administration 
(NASA) Engineering and Safety Center (NESC) to conduct an independent 
review of F/A-18 Physiological Episodes (PE); in March they were asked 
to include T-45C in that review. The team members consist of NASA 
engineers and aerospace medical professionals. The NESC team is 
reviewing the Navy's PE investigation process, ongoing root cause 
analysis and mitigations, as well as the performance of the F/A-18 
Onboard Oxygen Generation System (OBOGS) and Environmental Control 
System (ECS). In addition to extensive coordination and data-sharing 
with NAVAIR, their itinerary includes fact-finding visits to F/A-18 
squadrons at Naval Air Station, Oceana, the depot overhaul for ECS 
components at Fleet Readiness Center East, a trip aboard an aircraft 
carrier to witness embarked flight operations, and a visit to Training 
Wing ONE in Meridian, Mississippi. NAVAIR expects to receive NASA's 
report in August of 2017.

                                  [all]
</pre></body></html>
